<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2017

                              ----------                              


                        TUESDAY, MARCH 15, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:30 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lindsey Graham (chairman) 
presiding.
    Present: Senators Graham, Blunt, Moran, Leahy, Mikulski, 
and Coons.

           UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

STATEMENT OF HON. GAYLE SMITH, ADMINISTRATOR

              OPENING STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. The subcommittee will come to order. 
Senator Leahy is on his way, but he said it was okay to start, 
so we will get started.
    Our hearing today is on the United States Agency for 
International Development fiscal year 2017 budget request.
    I would like to welcome our witness, USAID Administrator 
Gayle Smith. After opening statements from the Chair and 
ranking member, we will hear from Ms. Smith, and then we will 
have 7-minute rounds of questions and answers. I ask that the 
testimony submitted by the USAID Administrator and the USAID 
Inspector General be included in the record.
    My opening statement is very quick. Thank you for what you 
do. You work in difficult places. Thanks to all those who work 
under you. They really do risk their lives for our Nation, 
trying to bring stability to very troubled areas of the world.
    With that, Senator Coons, would you like to say anything?
    Senator Coons. I will simply join you, Chairman Graham, in 
saying thank you to Gayle and to everybody in USAID who does so 
much to improve the world and to bring forth the best of 
American values to that world.
    It is a difficult and dangerous time globally, and I am 
grateful for the opportunity to work with you on the 
subcommittee. Thank you.
    Senator Graham. We have the ranking member, Senator 
Mikulski. Would you like to say anything?
    Senator Mikulski. Of course.
    Senator Graham. Be my guest.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman.
    I want to welcome Ms. Smith to the hearing. I eagerly look 
forward to her testimony. I might have to leave shortly after, 
because we have an Intelligence Committee meeting. But we are 
looking forward to hearing what she has to say about how we can 
use this other form of American power in the world to advance 
international interests and our own interests as well.
    We in Maryland are very proud of our relationship with 
USAID. We have many non-governmental organizations (NGOs) in 
Maryland that are associated with it.
    Mr. Chairman, we have many Maryland contractors and people 
who work either for a contractor or for an NGO that have been 
placed in harm's way. You all know about the dramatic rescue of 
Alan Gross. You know about the way Warren Weinstein was killed 
by an American drone but he was an American contractor. We have 
organizations like Catholic Relief, Lutheran World Relief, 
International Social Services, American Hindu World Service, 
International Orthodox Christian Charities.
    So, one, we are involved. Second, our people are often in 
harm's way. We need to know how USAID is not only going to 
deliver services but also what are your thoughts about how we 
protect those people who are working in the field in America's 
interests, whether they work formally for the State Department 
or through these wonderful nonprofit organizations?
    We also want to make sure that you have the resources that 
you need in order to do your job.
    So we look forward to your testimony.
    The other situation I want to bring to your attention is 
Anita Datar, who is a development worker. I hope you can share 
in your testimony or comments how you would like to be able to 
recognize her. She was killed in the line of duty, and we would 
like to get your thoughts on that.
    Thank you, Mr. Chairman.
    Senator Graham. Ms. Smith, thank you. Please proceed.

                 SUMMARY STATEMENT OF HON. GAYLE SMITH

    Ms. Smith. Thank you very much, Mr. Chairman and Senators 
Coons and Mikulski.
    I want to thank you, in particular, for recognizing the 
work of not only the men and women of USAID, but our partners. 
I think they do extraordinary work, and it is, unfortunately, 
not recognized as often as it should be, and it means a great 
deal to me and also a great deal to them that the three of you 
would recognize them for their hard work and their sacrifice.
    I welcome the opportunity to discuss President Obama's 
fiscal year 2017 budget request for USAID. As you know, for 
more than 50 years, USAID has led our Nation's efforts to 
advance dignity and prosperity around the world, both as an 
expression of our values and to help build peaceful, open, and 
flourishing partners. This request will help advance that 
important legacy. But our budget line items tell only part of 
the story. In recent years, with vital support from Congress, 
we have acted to make our work more efficient, effective, and 
impactful.
    First, recognizing that foreign assistance is just one 
valuable tool of many, we are making smarter investments with 
our assistance; leveraging private capital and funding from 
other donors to scale our impact; and supporting governments, 
small businesses, and entrepreneurs to mobilize domestic 
resources for development.
    Second, recognizing that development is a discipline, we 
are improving the way we do and the way we measure our work. 
Since adopting a new evaluation policy in 2011, the Agency has 
averaged 200 external evaluations a year. Our data show that 
more than 90 percent of these evaluations are being used to 
shape our policies, modify existing projects, and inform future 
project design.
    Third, recognizing that USAID can achieve more when we join 
forces with others, we partner with other U.S. Government 
agencies, American institutions of higher learning, NGOs, and 
communities of faith. When we can achieve greater efficiency or 
impact, we align goals and strategies with governments and 
organizations all over the world. And engagement with the 
private sector is now fully embedded into the way we do 
business.
    Finally, recognizing that development solutions are 
manifold, we are pursuing integrated country strategies, 
helping to build local research capacity and harnessing 
science, technology, and innovation to accelerate impact 
faster, cheaper, and more sustainably.
    These and other steps are making us more accountable, 
stretching our dollars further, and helping USAID live up to 
its important role as the United States' lead development 
agency.
    For less than 1 percent of the Federal budget, the 
President's request will keep us on this path, enabling us to 
meet new challenges, seize emerging opportunities, improve the 
way we do business, and deliver transformational results on 
behalf of the American people.
    Specifically, the request of $22.7 billion will help 
advance progress in the four core pillars of our work: first, 
fostering and sustaining development progress; second, 
preventing, mitigating, responding to global crises; third, 
mitigating threats to national security and global stability; 
and fourth, leading in global development accountability and 
transparency.
    In countries around the world, USAID works to foster and 
sustain development progress in a range of sectors. In global 
health, we will continue to save lives and build sustainable 
health systems in the countries where we work. We will also 
continue to achieve transformational progress through the U.S. 
Government's major development initiatives, including Feed the 
Future and Power Africa. And we will continue to promote 
quality education and increase access to safe water and 
sanitation.
    Finally, as we know, progress is not sustainable without 
open and effective governance and a vibrant civil society. The 
request will enable us to expand our work in democracy, rights 
and governance.
    As a global leader in humanitarian response, the United 
States is there wherever and whenever disaster hits. Our 
assistance saves lives and protects precious development gains, 
whether in Syria and South Sudan or on any of the four 
continents now affected by El Nino.
    The President's request provides the agility and 
flexibility that is so desperately needed to prevent, mitigate, 
and respond to these global crises.
    We also work in places of strategic importance to U.S. 
foreign policy to mitigate emerging threats and other global 
security challenges. This request supports these critical 
efforts from planting the seeds of dignity and opportunity that 
offer a counternarrative to violent extremism, to fostering 
goodwill toward the United States. We are addressing the root 
causes of insecurity and migration from Central America, 
strengthening our partners in Eastern Europe and Central Asia, 
and investing in long-term progress in Afghanistan.
    Finally, this request will enable USAID to continue to 
lead. It includes support for the Global Development Lab to 
help us spur and integrate innovation across and beyond the 
agency, and for our Bureau of Policy Planning and Learning to 
help us continue to drive with evidence.
    It also supports our work to strengthen USAID as an 
institution and support the men and women of this agency who 
serve their country bravely and in some of the world's most 
challenging environments.
    It is a great privilege to serve the American people 
alongside the men and women of USAID, and I look forward to 
working closely with Congress to continue making USAID more 
agile, accountable, and impactful. Together, we are building 
the agency we need and the world deserves, and making 
investments in a better future that will pay dividends for 
years to come.
    Thank you for this opportunity and for your support. I 
welcome your questions.
    [The statements follow:]
               Prepared Statement of Hon. Gayle E. Smith
    Chairman Graham, Ranking Member Leahy, and distinguished members of 
the subcommittee: thank you for inviting me here to discuss President 
Obama's fiscal year 2017 budget request for the United States Agency 
for International Development. I want to thank you for your continued 
leadership and commitment to global development.
    For more than 50 years, USAID has led our Nation's efforts to 
advance dignity and prosperity around the world, both as an expression 
of core American values and to help build peaceful, open, and 
flourishing partners for the United States. This request will help 
advance that important legacy, but our budget line items only tell part 
of the story. In recent years, with vital support from Congress, we 
have acted to make our work more efficient, effective, and impactful.
    First, we recognize that though foreign assistance is a valuable 
tool, we cannot achieve sufficient impact through assistance alone. 
That is why we are making smarter investments with our assistance; 
leveraging private capital and funding from other donors to scale our 
impact; and supporting governments, small businesses and entrepreneurs 
to mobilize domestic resources for development. Through this approach, 
we are providing taxpayers with greater value for their money. For 
example, with every dollar USAID invested into more than 360 public-
private partnerships active in 2015, partners committed about $3.50 in 
both cash and in-kind contributions over the life of the partnership. 
In every region and every sector, we are using our assistance to spur 
investment from other donors, private businesses, and country 
governments.
    Second, we recognize that development is a discipline. We have 
improved the way we do--and measure--our work. Since adopting a new 
evaluation policy in 2011, the Agency has averaged 200 external 
evaluations a year, and our data show that more than 90 percent of 
these evaluations are being used to shape our policies, modify existing 
projects, and inform future project design. We are also doing more to 
measure impact, and working to create the feedback loop to ensure that 
what we learn is built into what we do. We must continue to 
institutionalize these practices to ensure we can drive with evidence, 
make mid-course corrections, scale what works, and, importantly, be 
fully transparent and accountable.
    Third, we recognize that USAID can achieve more when we join forces 
with others. We have partnered with agencies across the U.S. 
Government, with U.S. institutions of higher learning, with non-
governmental organizations and with communities of faith. Where we can 
achieve greater efficiency or impact, we also align goals and 
strategies with governments and organizations all over the world, 
including donor nations and developing countries. And, engagement with 
the private sector--including small businesses--is now fully embedded 
into the way we do business. In fact, in fiscal year 2014 USAID was one 
of only three Federal agencies to receive an A+ rating from the Small 
Business Administration. Additionally, we are prioritizing local 
ownership, a key component of sustainable development. Since 2010, we 
have doubled the percentage of our funding obligated through local 
governments, civil society partners, and local businesses.
    Finally, we recognize that development solutions are manifold. That 
is why we are pursuing integrated country strategies and harnessing 
science, technology, and innovation to accelerate impact faster, 
cheaper, and more sustainably. We are helping to build local research 
capacity and sourcing new ideas from all over the world. Our Global 
Development Lab is designed to take smart risks to test out new ideas 
and help scale successful solutions. We must continue to work to 
integrate these capacities across the Agency and with our development 
partners.
    These and other steps are making us more accountable, stretching 
our dollars further, and helping USAID live up to its important role as 
the United States' lead development agency. I am proud to say that even 
as expectations grow ever higher, we continue to work hard to meet new 
challenges, seize emerging opportunities, improve the way we do 
business, and deliver transformational results on behalf of the 
American people.
    For less than 1 percent of the Federal budget, the President's 
request keeps us on this path. The request will provide the resources 
we need to deliver against our most urgent priorities and to advance 
our mission of ending extreme poverty and promoting resilient, 
democratic societies around the world while remaining consistent with 
the levels set in the 2015 Bipartisan Budget Act. Overall, the fiscal 
year 2017 budget request for the State Department and USAID is $50.1 
billion, $35.2 billion of which is Enduring, and $14.9 billion of which 
is Overseas Contingency Operations (OCO) funding.
    The President's budget request of $22.7 billion for USAID-related 
accounts will help enable progress in the four core pillars of our 
work: (1) fostering and sustaining development progress; (2) 
preventing, mitigating, and responding to global crises; (3) mitigating 
threats to national security and global stability; and (4) leading in 
global development, accountability, and transparency.
                foster and sustain development progress
    In countries around the world, USAID fosters sustained and 
inclusive economic growth, lifts millions of people out of extreme 
poverty, and promotes open and effective governance. This work has 
helped propel major gains in a whole host of sectors, from global 
health to food security, energy, education and water. The President's 
budget request focuses our resources on what works and uses our 
assistance to unlock additional funds from other donors, businesses, 
and most importantly, from developing countries themselves.
    In global health, for example, the $2.9 billion request will 
continue our work to save lives and build sustainable health systems in 
the countries where we work. We are focused on three goals: ending 
preventable child and maternal deaths, achieving an AIDS-free 
generation, and protecting communities from infectious diseases. In all 
of these areas, we have achieved major progress. As part of the 
President's Emergency Plan for AIDS Relief (PEPFAR), USAID is helping 
support life-saving treatment for 9.5 million people and in 2015 helped 
provide testing and counseling for 68 million people. Additionally, our 
efforts have contributed to PEPFAR being well on track to reach the 
bold HIV prevention and treatment targets set by President Obama last 
September. Since 1990, we have helped save over 100 million lives, and 
the number of children dying preventable deaths has been cut in half. 
In partnership with UNICEF and other governments, our global leadership 
on ending preventable child and maternal deaths has spurred action from 
countries around the world. In fact, the Prime Minister of the 
Democratic Republic of the Congo recently agreed to increase domestic 
resources for health from 4.0 to 7.5 percent.
    Additionally, our support of Gavi, the Vaccine Alliance has helped 
immunize two out of every five children born worldwide, and the 
President's Malaria Initiative (PMI) has helped countries throughout 
sub-Saharan Africa scale malaria prevention and control interventions, 
resulting in a major reduction in malaria illness and death. The 
request will continue these efforts, with $275 million to support Gavi. 
To answer President Obama's State of the Union call to end the scourge 
of malaria, the request also includes an increase of $200 million to 
fight malaria, made up of a $71 million increase to the annual PMI 
level and a proposal to repurpose $129 million in remaining Ebola 
emergency funds for malaria.
    Through the U.S. Government's Feed the Future initiative, we will 
continue to strengthen U.S. leadership in ending hunger, malnutrition, 
and poverty. We are working in 19 focus countries in Africa, Asia, 
Latin America, and the Caribbean and are targeting our funds where our 
interventions have been most successful. The $978 million request for 
Feed the Future reflects our evidence-based determination that 
increased funding for programs in, for example, Bangladesh, Ethiopia, 
Nepal, Senegal, Tajikistan, and Zambia will enhance our impact in those 
countries. At the same time, we have made plans to adjust programs in 
Haiti, Kenya, Mozambique, Rwanda, and Tanzania so we can achieve the 
same level of impact at a lower cost.
    Feed the Future is a powerful example of what we can achieve when 
the world comes together around a shared global challenge, working with 
countries that want to take ownership of, contribute to, and be 
accountable for improving their food security. Over the past 5 years, 
Feed the Future and the New Alliance for Food Security and Nutrition 
have helped build a coalition that has committed more than $30 
billion--including funding from other donors and the private sector. 
Our coalition includes agencies across the United States Government 
such as the Department of Agriculture and the Millennium Challenge 
Corporation, over 70 top U.S. universities, and hundreds of other 
partners. This coalition has helped achieve major development gains, 
ranging from a 33 percent decrease in child stunting in Ghana to a 16 
percent decrease in poverty in targeted areas of Bangladesh. And now, 
there is potential for the Global Food Security Act, which was passed 
by the Senate Foreign Relations Committee last week, to ensure that 
this partnership can continue to build on these gains for years to 
come.
    Like Feed the Future, through Power Africa we have also mobilized a 
diverse global coalition of bilateral, multilateral, and private sector 
partners to maximize our impact across sub-Saharan Africa. USAID and 
our partners across the government have successfully demonstrated that 
this model works, and governments across the continent are eager to get 
involved. Power Africa's recently released Roadmap outlines a concrete 
plan for how we will achieve the ambitious goal of adding 30,000 
megawatts (MW) of electricity generation and 60 million connections by 
2030, thereby doubling access to electricity across the continent. 
Power Africa has already helped transactions expected to generate 4,300 
MWs reach financial close. Power Africa will continue to build on our 
ongoing work to strengthen the investment climate across sub-Saharan 
Africa and to increase the capacity of African governments and 
utilities to develop and manage their domestic energy sectors. And just 
this year, we launched a new app to monitor transactions across the 
continent in real-time. In addition to improving transparency, this 
tool will help drive the competitiveness of African markets.
    We have much work ahead of us to accomplish our goals, but with the 
recent enactment of the Electrify Africa Act, I am confident that Power 
Africa will continue to transform sub-Saharan Africa's energy sector to 
ensure the lights are on in more homes, businesses, and schools across 
the continent.
    I know there is a similar level of bipartisan support for our 
efforts in education. Over the past 4 years we have pursued a strategy 
that emphasizes quality, with a focus on improving early-grade reading, 
helping young people gain skills important for future employment, and 
increasing equitable access to education in the many crisis and 
conflict-affected areas around the world. This outcomes-based strategy 
is working, and our $788 million request--along with the additional 
financing leveraged from partners--will allow us to continue to support 
education all over the world.
    Pursuing this strategy, we have reached more than 30 million 
children and young people have benefited in more than 50 countries 
since 2011. Part of the reason for this success is that many political 
leaders are putting real capital behind education. For example, in 
Jordan, USAID developed an evidence-based reading and math program that 
improved student learning outcomes. Now, the Ministry of Education is 
supporting nationwide adoption of these early grade reading and math 
policies, standards, curricula, and assessments. Of course, with so 
much of the world in crisis, ensuring equitable education in unstable 
environments continues to be a challenge for the global community. 
USAID is on the front lines of this challenge, whether helping 
countries like Lebanon and Jordan expand access to education for all 
despite an overwhelming influx of refugees or acting quickly to set up 
non-formal education centers for Nigerian families displaced by Boko 
Haram.
    In the coming year, we will continue our ongoing efforts to 
increase access to safe water and improved sanitation. This request of 
$256 million will specifically support water supply, sanitation, and 
hygiene programming, or WASH. But USAID's commitment to improve access 
to water extends well beyond that number; we support water programs in 
coordination with other sectors, including global health, food 
security, and disaster assistance. This is also another sector where we 
leverage a great deal of investment from others, including through 
partnerships with major corporations like Coca-Cola to improve 
sustainable water access.
    The budget request also continues our important work to foster 
sustainable development that reflects the realities of a changing 
climate. The request of $352.2 million through the Global Climate 
Change Initiative will further our work overseas to promote low-
emissions development and to help our partner nations lighten their 
carbon footprint, adapt to climate-driven risks, and promote public 
health. And, we are enhancing our impact by pursuing cross-sector 
partnerships. For example, on behalf of the U.S. Government, USAID 
created the Tropical Forest Alliance 2020, a partnership of more than 
60 government, private sector, and civil society participants working 
together to reduce commodity-driven tropical deforestation.
    Our work in all of these sectors and more will be essential for 
fostering sustained and inclusive economic growth all over the world. 
But progress is not sustainable without open and effective governance. 
That is why this request also includes $2.3 billion for USAID's work to 
strengthen democracy and governance around the world. This support is 
essential at a time when we are seeing troubling trends like democratic 
backsliding and closing space for civil society, independent voices, 
and aid workers. It also enables us to seize opportunities presented by 
significant democratic breakthroughs, such as last year's breakthrough 
elections in Burma and Sri Lanka.
    And, as I noted earlier, we are continuing to learn more about how 
to achieve impact with this work. For example, an impact evaluation in 
Malawi found that an increasing number of well-trained election 
monitors reduced instances of fraud by up to 6 percent. And that helped 
inform our approach in Burma, where among other activities, we trained 
and deployed thousands of domestic observers. The result was the most 
inclusive, credible, and transparent election in the country's recent 
history. We are also working to bolster rule of law and good 
governance. In partnership with the Millennium Challenge Corporation 
and countries worldwide, USAID adopted e-governance innovations that 
revamped procurement systems in Indonesia and Paraguay, reducing 
corruption in public contracting.
    The request also continues our important work to advance progress 
for women and girls across the world. That includes $75 million toward 
the U.S. Government's Let Girls Learn initiative, including the Let 
Girls Learn Challenge Fund, which will enable USAID to empower 
adolescent girls through increasing access to quality education and 
removing barriers to success. Additionally, USAID will continue to 
pursue efforts to prevent child, early, and forced marriage; support 
children in adversity, and prevent gender-based violence.
    We are also supporting various regional development strategies, 
including a $75 million request for Trade Investment Capacity Building 
to align, focus, and expand current bilateral and regional trade 
programs in sub-Saharan Africa and an additional $10 million request 
for the Young African Leaders Initiative. Additionally, development is 
a vital underpinning of the Asia-Pacific Rebalance, and this request 
includes $694.4 million to strengthen democratic processes, promote 
rule of law and respect for human rights, and enhance critical trade 
efforts and prevent pandemic health threats in the region.
         prevent, mitigate, and respond to humanitarian crises
    The United States is a world leader in humanitarian response. 
Whenever a disaster hits, we are there to provide food, medicine, 
water, even the tools to rebuild. Over the last 7 years, USAID has 
deployed 23 Disaster Assistance Response Teams (DARTs); on average, 
USAID has responded to 60 emergencies each year. We currently have four 
DARTs deployed simultaneously--in Iraq, South Sudan, Syria, and 
Ethiopia. The United States is the single largest donor of humanitarian 
aid to the Syrian people, and is feeding more than 1 million people in 
South Sudan each month. We are responding to El Nino on four 
continents, including in Ethiopia where our efforts are building on the 
Government's strong response and longstanding work to build safety nets 
for its people. Our assistance is saving lives and protecting precious 
development gains.
    The request of $3.3 billion in USAID-administered humanitarian 
assistance accounts provides the agility and flexibility that is 
critical in preventing, mitigating, and responding to global crises. 
The request includes additional flexibility in our title II food 
assistance program to make it more effective, so we can assist 
approximately 2 million more people in crises with the requested 
resources. An additional $107.6 million is requested to prevent 
conflict and stabilize emerging democratic processes in critical 
transition environments, and for quick response to urgent, 
unanticipated civilian contingencies. This will enable USAID to take 
advantage of opportunities to catalyze positive change in countries all 
over the world, as we have done in Burma, Kenya, and Colombia.
    We do this work in increasingly challenging environments, as we 
face crises that are chronic, complex, and severe. These crises strain 
our resources and take a toll on our people. That is why, even as we 
continue to respond to the most urgent crises, we must invest now to 
manage a future of rapid and often tumultuous change. That includes 
scaling up some of the most effective but least visible work USAID is 
doing across the agency to foster resilience--or the capacity of 
people, communities, and countries to withstand external shocks. And it 
includes using tools like our Famine Early Warning System and fragility 
analyses to help anticipate crises to the best of our ability.
    It also includes staying the course for years to come on the Global 
Health Security Agenda--ensuring that investments made with funding 
from the emergency Ebola request in December 2014 continue to prevent 
the spread of Ebola and other infectious diseases. Ebola, and now Zika, 
have exposed the degree to which the world is unprepared to respond to 
infectious disease threats. These outbreaks serve as an important 
reminder that all countries need to have the capacity to prevent, 
detect, and respond to disease threats. Full implementation of the 
Global Health Security Agenda will protect Americans by extinguishing 
outbreaks at the source before they threaten our national and global 
security.
       mitigate threats to national security and global stability
    As the latest National Security Strategy affirms, development plays 
a ``central role in the forward defense and promotion of American 
interests.'' That is why USAID works in places of strategic importance 
to U.S. foreign policy to mitigate emerging threats and other global 
security challenges. These are countries where achieving development 
gains is especially difficult, and development is an especially slow 
process. But our efforts there are nonetheless critical, from planting 
the seeds of dignity and opportunity that offer a counter-narrative to 
violent extremism to fostering good will toward the United States.
    For example, the $470.3 million request for USAID-implemented 
activities to improve prosperity, economic growth, and governance 
throughout Central America will help address the root causes of 
migration from the Northern Triangle countries of El Salvador, 
Guatemala, and Honduras. A dramatic rise in crime and violence has 
slowed economic growth in these countries, and USAID has made important 
progress through crime prevention activities. In fact, an initial 
analysis indicates a 66 percent drop in homicides in the Salvadorian 
communities where USAID targets its programming. Guatemala has taken 
critical steps to decrease impunity, and El Salvador has adopted the 
most comprehensive national security plan in the Northern Triangle--
based on USAID's community crime prevention model.
    We acknowledge that in many of these challenging environments, 
security constraints and limited staff can make it difficult to monitor 
projects and measure progress. USAID is committed to responsible 
stewardship of taxpayer funds in any circumstance. That is why, in 
Afghanistan, USAID developed a multi-tiered monitoring approach that 
allows project managers to gather and analyze data from multiple 
sources, triangulate information to ensure confidence in the reporting, 
and use the results to make programmatic decisions. To implement this 
approach and ensure proper oversight, we are scaling up third-party 
monitoring.
    Additionally, the request includes $698.1 million in Economic 
Support Fund and Global Health Programs funding to help strengthen 
market economies and trade opportunities, independent media and 
democratic institutions, energy independence, and enduring commitments 
such as health and education in Europe, Eurasia and Central Asia. These 
efforts are part of the U.S. Government's broader effort to help 
Ukraine, Georgia, Moldova and Russia's neighbors stand strong against 
increased pressure from Russia.
    leading in global development, accountability, and transparency
    This request positions the United States for continued leadership 
in global development, accountability, and transparency. That includes 
$195.5 million for the Global Development Lab (Lab), and our Bureau for 
Policy, Planning, and Learning (PPL). The Lab will help spur and 
integrate innovation across and beyond the Agency, while PPL will help 
us continue to lead with evidence-based approaches to development.
    The request will also help support and strengthen USAID as an 
institution. The requested $1.7 billion for USAID Administrative 
Expense accounts will sustain ongoing operations and build on recent 
reforms, including continued improvements in procurement, local 
capacity building, innovation, and accountability.
    Finally, we cannot lead without the men and women of USAID. Not 
only do they bring an incredible amount of experience and expertise to 
critical policy decisions, they are willing to risk their lives in 
service to their country. In light of that, I ask that you please 
support the restoration of full Overseas Comparability Pay for USAID 
personnel who are deployed abroad. In addition to helping the Agency 
retain highly skilled individuals in a competitive international jobs 
market, it will ensure fair treatment for those serving in relatively 
high-risk locations.
    Again, I appreciate the opportunity to discuss the President's 
fiscal year 2017 budget request. It is a great privilege to serve the 
American people alongside the men and women of AID, and I look forward 
to working closely with Congress to continue to make USAID a more 
agile, accountable, and impactful Agency. Thank you again, and I 
welcome your questions.
                                 ______
                                 
   Prepared Statement of Ann Calvaresi Barr, Inspector General, U.S. 
                  Agency for International Development
    Chairman Graham, Ranking Member Leahy, and members of the 
subcommittee, I am pleased to provide this written statement on behalf 
of the Office of Inspector General (OIG) for the U.S. Agency for 
International Development (USAID). As USAID's recently sworn-in 
Inspector General, I appreciate this opportunity to share my 
perspectives on the office and oversight of U.S. foreign assistance.
              usaid office of inspector general oversight
    USAID OIG promotes economy, efficiency, and effectiveness in U.S. 
foreign assistance, and works to combat waste, fraud, and abuse across 
a variety of international settings. We provide oversight of USAID 
programs and operations, as well as those of the Millennium Challenge 
Corporation (MCC), the U.S. African Development Foundation (USADF), the 
Inter-American Foundation (IAF), and the Overseas Private Investment 
Corporation (OPIC). Together, these agencies apply billions of dollars 
in U.S. Government resources each year to development and humanitarian 
assistance objectives in more than 100 countries.
    In executing our oversight mandate, OIG conducts and supervises 
audits and reviews, and makes recommendations to improve the use of 
Federal resources and the performance of agency programs. OIG 
investigates allegations of fraud, bribery, and other types of 
misconduct--work that often leads to criminal and civil charges or 
administrative action against those who have abused the public trust. 
Our office raises awareness among development professionals and U.S. 
Government partners about their responsibilities to help prevent and 
report misconduct, and keeps agency management and Congress abreast of 
significant problems in foreign assistance efforts and the progress of 
remedial actions. To execute these core responsibilities, OIG maintains 
a staff of dedicated Foreign and Civil Service auditors, analysts, 
investigators, and Foreign Service Nationals. To ensure independence in 
performing this work, OIG's human capital, administrative, and 
information technology systems and staff operate separately from the 
agencies we oversee. For this purpose, OIG also maintains autonomous 
channels for reporting on its work and a dedicated legal staff to 
provide counsel to the Inspector General.
    OIG's audit and investigative work reflects the office's broad 
oversight portfolio and impact on U.S. foreign assistance. Last fiscal 
year OIG issued 698 financial and performance audits and reviews with 
more than 1,268 recommendations for improving foreign assistance 
programs. These audits identified approximately $290 million in 
questioned costs and funds to be put to better use. OIG's investigative 
work led to 10 arrests and 91 administrative actions such as 
suspensions, debarments, and terminations of employment. OIG also 
realized nearly $85 million in savings and recoveries in fiscal year 
2015 as a result of its investigations. In addition, OIG provided 270 
fraud awareness briefings and training sessions for close to 8,600 
attendees in 36 countries.
    These figures stand alongside qualitative gains such as 
strengthened management practices, adjustments in program design, and 
new and improved guidance that resulted from OIG audit and 
investigative work.
    As USAID's new Inspector General, I have been struck by the 
dedication of OIG staff and their strong commitment in discharging 
oversight and management responsibilities. OIG has repeatedly 
demonstrated its value to U.S. foreign assistance and I look forward to 
building upon its record of accomplishment.
    In fiscal year 2017, OIG will continue to meet existing mandates 
and step up to emerging requirements. OIG will work across a broad 
portfolio of development and humanitarian assistance programs and 
provide oversight of education, democracy and governance, agriculture, 
economic growth, and environmental programs, among others. We will 
balance coverage of these wide-ranging efforts with imperatives to 
provide intensive oversight of major U.S. Government initiatives that 
respond to acute humanitarian needs, address international public 
health concerns, and aid conflict-affected countries that have become 
key focal points of U.S. foreign policy. USAID OIG will, for example, 
continue to work to protect the integrity and effectiveness of 
humanitarian responses to the Syria crisis in coordination with the 
OIGs for the Departments of State and Defense. OIG will also closely 
monitor emerging public health threats like the rapid spread of the 
Zika virus in shaping oversight plans and continue to assess the 
progress of health programs under the President's Emergency Plan for 
AIDS Relief and the President's Malaria Initiative. OIG will continue 
its oversight of other major initiatives, such as Feed the Future, and 
consider requirements associated with USAID programs to address the 
causes of migration from Central America. OIG remains committed to 
providing oversight of assistance to Afghanistan and Pakistan, since 
this assistance plays a significant role in U.S. engagement with both 
countries. We will do this while completing mandatory work to promote 
the integrity of financial and information systems.
    As we look to the future, I have begun to personally assess OIG's 
work, management structure, policies, processes, and systems to ensure 
the office is best positioned to effectively oversee development 
assistance programs.
    On the horizon are changes to improve OIG's work to ensure it has a 
meaningful impact on the strategy, policy, and practice of U.S. foreign 
assistance. This includes building and maintaining a workforce equipped 
with the right guidance, skills, and resources to evaluate complex 
development programs, unravel sophisticated fraud schemes, and address 
new oversight requirements. Other changes will focus on improving OIG 
operations, and bolstering employee competencies and engagement. As OIG 
looks to deepen its technical expertise and strengthen its processes, 
we will prioritize staff development and give OIG's workforce the tools 
it needs to provide insight into agency activities and operations.
    In addition to recruiting and developing top-notch staff, I am 
committed to making certain that OIG has the right internal policies, 
processes, and systems in place to meet the highest standards for 
reliable and meaningful oversight. The quality of our audit and 
investigative work must be beyond question. This includes maintaining 
full compliance with standards governing OIG audits and investigations 
and adopting best practices from across the broader accountability 
community. As a significant step toward this end, OIG will move to 
establish an independent quality assurance unit with responsibility for 
providing assurance across all of OIG's operating units. This unit will 
continuously review OIG's work, processes, and reporting to make sure 
we always meet or exceed U.S. Government standards, regardless of where 
our work is performed or how we communicate about its results.
    Positioning OIG to provide oversight as effectively as possible 
requires us to look outward as well. On this front, I will work to 
elevate the focus of our work, developing and issuing findings that 
speak to the progress of major cross-cutting initiatives and address 
strategic topics of concern to the foreign assistance community at 
large. We will pair this with an effort to bring together audit and 
investigative observations and issue products with the benefit of this 
richer perspective on the range of risks that confront foreign 
assistance activities.
    We will also capitalize on a recently issued USAID memorandum 
affirming the importance of cooperation with the OIG in the course of 
our oversight work. After being sworn in as Inspector General, I 
prioritized communicating a shared understanding of our role and 
authority and worked with the Administrator to relay this message to 
agency staff. As a result of this engagement, the Administrator took 
the opportunity to stress her commitment to a positive working 
relationship with the OIG, remind agency employees of their obligation 
to work with our office, and underscore her expectation that all USAID 
employees will assist the OIG and respond to our office in a timely and 
transparent way. I am appreciative of the support I received from 
USAID's senior leadership in working to issue this affirmation of our 
role.
    OIG will leverage this recognition of its mandate and authorities 
in ensuring that foreign assistance is properly managed and look to 
produce dividends for taxpayers in the process. OIG's work produces 
real returns for the Federal Government. For every dollar OIG has spent 
over the past 5 years, we have returned over 5 dollars in questioned 
costs, recommendations that funds to be put to better use, and 
investigative savings and recoveries. In addition to these monetary 
returns, OIG findings and observations result in important changes to 
policies and procedures, improvements in internal control, and action 
against agency or implementer staff who abuse their positions. In a 
time of resource constraint, USAID OIG offers a solid investment for 
U.S. taxpayers and serves as a steadfast contributor to effective 
government.
 challenges to the management and administration of foreign assistance
    I turn now to briefly highlight several of the top management 
challenges confronting U.S. foreign assistance efforts.
    Work in nonpermissive environments is a leading challenge for 
foreign assistance agencies. Programs in conflict-affected settings 
face greater risks than those operating in more stable environments. 
These risks typically include a more acute threat to the lives of U.S. 
Government and implementer personnel. In these settings, in addition to 
limited access to projects and threats to safety, USAID often confronts 
dishonest and opportunistic actors who look to prey upon the influx of 
foreign aid. In some cases, instability and weak institutions threaten 
both the immediate progress and long-term benefit of development 
efforts. Agency staff and implementing partners alike face severe 
constraints in monitoring the progress of development and humanitarian 
assistance activities in these settings. Shortfalls in these activities 
can lead to health and environmental hazards, such as those we observed 
in a camp for displaced persons in Iraq. They can also create 
conditions for pervasive fraud and diversion. OIG, for example, 
recently documented the large-scale substitution of basic hygiene and 
food items intended for displaced Syrians with substandard materials. 
In other cases, we have noted the diversion of humanitarian goods to 
terrorist groups, and uncovered a case in which a sub-implementer 
received funds for a range of humanitarian assistance activities that 
it never performed. Meanwhile, in Afghanistan we found that a lack of 
access to project sites constrained USAID's ability to observe 74 
percent of the projects it funded.
    A second challenge is closely related: the collection, use, and 
reporting of unreliable data in connection with development programs. 
OIG has identified poor data quality as a concern across a spectrum of 
USAID's programs, irrespective of geographic location or functional 
area. Of 196 performance audit and survey reports OIG published from 
fiscal year 2013 to fiscal year 2015, about 4 in 10 identified problems 
with data quality or sufficiency. OIG has repeatedly identified errors 
and overstatements, gaps in data collection and reporting, and problems 
in the consistency with which underlying calculations are made. Recent 
OIG work on USAID's Ebola response activities, for example, found that 
the Office of Foreign Disaster Assistance lacked adequate performance 
measures given the nature of the Ebola crisis. OIG identifies data 
quality problems in more traditional development programs as well, as 
indicated in recent reports on justice system reform efforts, 
activities under the Feed the Future Initiative, and education 
programs. Without reliable data that meaningfully speaks to program 
results, USAID cannot effectively manage its programs or plan new ones. 
Moreover, absent reliable information on program progress, policymakers 
are unable to make fully informed decisions on the course of U.S. 
foreign assistance.
    USAID's long-term goal is to transfer ownership of its development 
initiatives so that the progress and results from its projects 
continue. To achieve this end, USAID is responsible for building 
sustainability into its plans and activities. Notwithstanding this aim, 
sustainability remains a major management challenge and OIG has often 
found that USAID planning for the end of projects has been inadequate. 
About a quarter of performance audit reports OIG issued from fiscal 
year 2013 through fiscal year 2015 contained recommendations to do more 
to ensure sustainability. In one case, we noted an HIV/AIDS project 
lacked a formal transition plan 3 years after the project began, 
threatening its continuation. In other cases, OIG has found that a lack 
of host country support, including the limited capacity of some USAID 
partners, reduced the likelihood that development goals could be 
realized and sustained. Recent OIG reports on programs in Afghanistan 
and Armenia, for example, noted that local partners lacked the ability 
to effectively support or continue USAID programs.
    The capacity of host country governments and local implementers can 
indeed determine the success or failure of development efforts. In 
recognition of the need for technical capacity within host country 
systems, USAID's Local Solutions Initiative aims to provide direct 
funding to host governments and to local private and nonprofit 
entities. Yet, USAID's risk mitigation efforts in association with this 
initiative have not been consistent and this constitutes another 
significant management challenge for the agency as a result. OIG audit 
and investigative work over the years has provided evidence that agency 
and partner controls are unable to effectively safeguard funds in many 
of these cases. The U.S. Government has channeled a sizable share of 
assistance to Afghanistan and Pakistan through local systems, for 
example, but not always demonstrated sufficient accountability for 
these funds. In fiscal year 2015, we issued a report on USAID's 
controls over direct assistance in Afghanistan, identifying 
shortcomings in both its oversight and in how it communicated about 
employees' responsibilities and the expectations placed upon Afghan 
implementers. In Pakistan, a direct assistance program to support 
municipal services in Khyber Pakhtunkhwa (KP) fell short in part 
because the mission failed to effectively work with the grantee, KP's 
Planning and Development Department, which lacked adequate capacity to 
implement the program on its own.
    Notwithstanding the emphasis on selectivity in the 2010 
Presidential Policy Directive on Global Development, USAID undertakes 
its core development work while also helping to advance numerous U.S. 
Government priorities and initiatives. Demands from across the U.S. 
Government and from within USAID have made it difficult for the agency 
to focus and have detracted from its central mission. USAID's lack of 
focus stands as an additional management challenge, as recent audit 
work has pointed to budget considerations, new initiatives, and 
program-specific funding that all drive the selection of development 
objectives. In OIG's survey of challenges related to the Arab Spring, 
we noted that a majority of the respondents to our survey had seen an 
increase in State Department influence over USAID programs. While USAID 
had reported taking action to reduce the number of program areas from 
785 to 461 over the past 5 years and revise planning guidance, it is 
too early to tell whether these changes will bring sufficient focus to 
Agency programs.
    Two additional challenges facing USAID pertain to the management of 
its human resources and decentralized management of information 
technology (IT) and information security. Audit work last year 
continued to indicate that USAID faces a shortage of experienced, 
highly skilled personnel familiar with USAID guidelines, standards, and 
processes. Staff retained under the Development Leadership Initiative 
pointed to irrelevant training, poor support in preparation for 
overseas assignments, and being assigned roles that were less than 
those of other employees as problems facing a major hiring effort in 
recent years. We also found that staffing shortages have hampered 
program implementation and oversight in many locations where USAID 
operates. On the IT front, OIG has noted the lack of an effective risk 
management program as well as a substantial number of open 
recommendations from prior IT-related audits. OIG deems this to 
indicate a significant deficiency in the security of USAID-wide 
information systems, including financial systems. An audit relating to 
the agency's privacy program for information technology identified new 
weaknesses and risks related to potential noncompliance with major 
privacy laws, including the Privacy Act of 1974, as amended.
    Another noteworthy challenge relates to the oversight arrangement 
for OPIC. USAID OIG currently provides limited oversight of OPIC, but 
does not have the authorities to provide the full scope of oversight 
envisioned in the Inspector General Act. To help address such oversight 
limitations, this subcommittee has directed OPIC to enter into an 
annual agreement with OIG for oversight services. However, this 
agreement is routinely delayed. The result is oversight that is subject 
to negotiation, limitations, and delays--an unacceptable arrangement. 
In the coming year, I welcome engagement with OPIC, the Office of 
Management and Budget, Congress, and other stakeholders on this matter 
with the aim of establishing a more permanent solution for OPIC 
oversight that aligns with the Inspector General Act, as amended, and 
reflects community best practices.
    On behalf of OIG, I thank you for this opportunity to address the 
subcommittee. I look forward to continuing to work with you to ensure 
the effective design and delivery of U.S. foreign assistance and to 
protect the funds supporting development and humanitarian assistance 
efforts.
    The agencies we oversee have important missions and make 
significant contributions worldwide to reduce poverty, promote economic 
growth, foster democratic governance, recover from disasters, and 
increase the quality of education and healthcare, among other areas. At 
the same time, in many parts of the world, extremism, instability, and 
open conflict make the jobs of development professionals working to 
achieve these goals that much harder. Meeting these and other 
challenges requires serious commitment; a thoughtful, informed 
approach; and effective collaboration to curb risks and change course 
when necessary. USAID OIG will continue to be an independent voice and 
steadfast partner in helping chart improvements to U.S. foreign 
assistance, and I look forward to working with you in the years to come 
to ensure that we provide maximum value to decision-makers, 
stakeholders, and, above all, the American people.

    Senator Graham. Senator Leahy, would you like to make a 
statement?

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Just this, Mr. Chairman. I also welcome Ms. 
Smith here. I have talked with the Administrator, and I 
appreciate that very much.
    I am sorry that Senator Cruz and others held you up for so 
long, but at least everybody else in the Senate voted for you, 
and I am glad you are finally here.
    I think USAID has to adapt to a rapidly changing world, but 
so do we in the Congress. I think USAID's core purpose should 
be sustainable development, and I know from our conversations, 
you believe that, too.
    I think that means helping local organizations and 
institutions solve their own problems. Too often in the past, 
USAID has treated recipients of USAID funds as instruments of 
what USAID wants to do. I think when we do that we encourage 
dependency, the opposite of sustainable development. USAID 
funds programs to meet the needs of people overseas, 
electricity, water, sanitation, and education, in countries 
where they do not even collect taxes from the elites of those 
countries.
    This subcommittee has probably been as strong of a defender 
of USAID as any in the Senate, but USAID has become too 
bureaucratic, bogged down by burdensome reporting requirements, 
stymied by applications for funding that only an expert who 
could decipher hieroglyphics can figure out. A lot of that is 
government-wide, not just USAID.
    We want USAID to be all it can be. I have a great deal of 
faith in you, and I say that as one who has watched this for 
years.
    USAID can be the face of a wonderful, generous Nation. Ms. 
Smith, I am glad you are the face that the United States is 
going to show.
    Thank you, Mr. Chairman.
    Ms. Smith. Thank you.

                        LIBYA, YEMEN, AND SYRIA

    Senator Graham. Thank you.
    I will start out with some questions. Your budget has $20.5 
million for Libya, and I think $55.9 million for Yemen. Is that 
correct?
    Ms. Smith. Yes, sir.
    Senator Graham. How do you operate in Libya and Yemen?
    Ms. Smith. Right now, our operations in Libya are quite 
constrained. We are supporting a very few local partners. What 
we have done is put money into the budget so that we are ready 
and able to begin responding as openings widen.
    In Yemen, the bulk of our assistance at this point is 
humanitarian assistance. We have provided I believe in the 
range of $180 million to date. Again there, unfortunately, we 
had to suspend our programs. We had very good programs in 
livelihoods and other activities in support of the transition. 
We hope to be poised again to respond in those areas as 
circumstances allow.
    Senator Graham. Are you on the ground in Yemen?
    Ms. Smith. No, we are not physically present in Yemen.
    Senator Graham. What kind of footprint do you have in 
Libya?
    Ms. Smith. We have partners in Libya, but our people are 
offshore.
    Senator Graham. Okay. What about Syria?
    Ms. Smith. In Syria, we have partners operating in Syria. 
We do not have USAID personnel inside Syria.

                            GENDER PROGRAMS

    Senator Graham. So I want to associate myself with Senator 
Mikulski's view of this account. This is soft power, not hard 
power, but you are just going to have endless work if you 
cannot provide stability.
    I think you have about $1 billion, I believe it is, to help 
women in Muslim countries. Is that correct?
    Ms. Smith. I will check on that exact----
    Senator Graham. Whatever the number, I think it is $1.3 
billion for gender programs.
    Ms. Smith. Yes, gender programs.
    Senator Graham. Could you inform the American taxpayer 
through us why it is important for us to invest in such 
programs? What do we get for it?
    Ms. Smith. I think we get a great deal for it. We have 
learned through our development experience that when women are 
empowered, when they have access to and, indeed, in some cases 
control over finances, we get a better return. I think we all 
know, as you have spoken to very often, when girls are 
educated, we get a better outcome in terms of stability, but 
also economic growth.
    In our gender programming, we are doing several things. We 
are trying to ensure that women have increased access to the 
things they need to control their lives and better their 
families and communities. That is access to finance. That is 
access to their rights.
    We are doing an increasing amount of work that I think is 
very effective--unfortunately, it needs to be done--on gender-
based violence, where we have seen a considerable uptick around 
the world.
    Senator Graham. What is your best success story?
    Ms. Smith. On women, I would say it is access to finance 
and work-force training for women that has enabled them to do 
two things. One is to send their kids to school and prevent 
child marriage; and second, to increase the incomes of families 
across-the-board.

                     FUTURE ASSISTANCE REQUIREMENTS

    Senator Graham. Okay. When we look at Libya, Yemen, and 
Syria down the road, do you believe your role will increase or 
decrease with these countries, if we can ever provide 
stability?
    Ms. Smith. Well, it is, certainly, my hope that USAID's 
role will increase for two reasons. I think it will be 
necessary to have USAID there as transitions begin and are 
maintained. But I think second, we can bring a great deal of 
knowledge and experience to the equation. So I think in all 
those cases, we will be involved.
    Senator Graham. I am just trying to get the subcommittee 
prepared for where I think the ball is going. Hopefully, one 
day the war in Syria ends. Hopefully, we can bring stability to 
Libya and Yemen. And I think the follow-on efforts will be a 
multiagency effort. But you will be in many ways in the lead.
    So when sequestration was in effect in 2011 or 2012, 
whenever it kicked in, how has the world deteriorated, if it 
has deteriorated, in the last 4 to 5 years, in the areas where 
you need to operate?
    Ms. Smith. I think we have seen humanitarian crises with 
much sharper edges than we have seen in the past. I think we 
have also seen very fragile states struggle to withstand 
external shocks.
    Senator Graham. Would you say Libya is a failed state?
    Ms. Smith. I would not say it is a failed state. I would 
say it is a very, very fragile state.
    Senator Graham. Okay, what about Syria?
    Ms. Smith. Syria, I would say the same, exceedingly 
fragile. We keep needing new orders of definition.
    Senator Graham. What about Yemen?
    Ms. Smith. I would put all three in the same category.
    Senator Graham. Okay. Can you operate effectively in Iraq?
    Ms. Smith. We do have some presence in Iraq. Our mobility 
is obviously constrained by security conditions.
    Senator Graham. How much money do you spend on security now 
versus 4 or 5 years ago?
    Ms. Smith. It has increased. Much of our security is 
covered by the State Department's side of the budget, because 
our people in the field are under chief of mission authority.
    Senator Graham. So that really----
    Ms. Smith. But I would wager that it has increased.
    Senator Graham. So what can this subcommittee expect in 
terms of your budget request in the future, given the nature of 
the region? Do you expect to be asking for more money?
    Ms. Smith. In future years?
    Senator Graham. Yes.
    Ms. Smith. I think it is quite possible.
    Senator Graham. You do not have a plan for the next 3 or 4 
years?
    Ms. Smith. USAID does, in fact, a great deal of planning 
for the next few years, including----
    Senator Graham. What is your plan for Syria?
    Ms. Smith [continuing]. On some of these transitions and 
projections.
    Senator Graham. So what you going to do in Syria in the 
next 3 or 4 years, assuming the war stops?
    Ms. Smith. I think, sir, it depends where the openings are. 
What we have learned in these transitions is that one of the 
things that often happens is we go too wide and too big in the 
beginning and try to do everything and take an extremely 
fragile state to a functioning, economically thriving democracy 
in a very short time.
    Senator Graham. What kind of effect does the war in Syria 
have on our assistance programs for refugees and humanitarian 
aid in the region as a whole?
    Ms. Smith. It has been a very significant portion of that 
overall budget. Very significant.
    Senator Graham. Is it something we were expecting 4 or 5 
years ago?
    Ms. Smith. I do not know that we were expecting this one, 
but I think USAID as an agency, in my experience, looks out 
ahead with the assumption that it is going to need to plan for 
multiple emergencies. That has been the pattern for the last 10 
or 12 years.
    Senator Graham. Well, this is the fifth anniversary of the 
Syrian war.
    Ms. Smith. Yes.
    Senator Graham. What kind of a toll has it had on your 
agency's budget, if it all?
    Ms. Smith. I think significant, if you look at our 
humanitarian assistance budget. Collectively, USAID and State 
have spent $5 billion over the last several years.
    Senator Graham. So when you look out the next 5 years, can 
you see similar pressures on your budget, given the region?
    Ms. Smith. Potentially. I, like you, am hopeful and believe 
strongly that we need to get to the point in all three of these 
countries and others where we have openings for peace and we 
can start on the path to stabilization.
    Senator Graham. The point I am trying to make is, are we 
prepared for what we know is going to follow, which is three 
failed states trying to be stabilized? Do we have a plan? Do we 
have the right budget number to deal with what we know is going 
to happen in the future?
    Ms. Smith. Sir, I can speak to the fiscal year 2017 
request.
    Senator Graham. Okay, thank you.
    Senator Mikulski.
    Senator Mikulski. Thank you.
    Senator Leahy, is that okay with you? I have to get to 
Intel.
    First of all, I want to welcome you, Ms. Smith. We think 
that you come with an incredible background. You focused a lot 
on disaster assistance and yet so much of what is going on in 
the world does seem to be a disaster. So we look forward to a 
steady hand, good leadership, and an eye also to the 
management.
    My principles, as Vice Chair of the Appropriations 
Committee, is number one, do no harm. Let's not have rollbacks, 
shovebacks, or whatever. Number two, let's capitalize existing 
programs, so that they work well, and we just don't also depend 
on Overseas Contingency Operations (OCO) funding. And number 
three, our reforms should be targeted.
    So for as much as we so value, and particularly--as I said, 
Maryland is the home to NGOs, seven faith-based ones led by 
Catholic Relief, Lutheran Services, the American Hindu 
Association, but also the great Johns Hopkins School of Public 
Health, the Bloomberg School, JHSPH.
    But you know, wherever there is a good program, there are 
even fantastic people running the program. I am very worried 
about USAID workers, USAID contractors, and the NGOs.

                     PROTECTION OF USAID PERSONNEL

    Could you share with us really what you see as USAID's role 
or USAID getting the State Department and others to focus on 
working to ensure the security of our people as they work under 
such very tough and often dangerous circumstances.
    Ms. Smith. Thank you, Senator, for your questions and also 
for your mention of Anita, who was killed shortly before I----
    Senator Mikulski. And I am going to say something about 
her.
    Ms. Smith. Okay. We will come back to that.
    We and the State Department take the security of our 
personnel and our partners very seriously. As has been pointed 
out, they are very often operating in more dangerous 
circumstances than in the past.
    Our personnel overseas operate under Chief of Mission 
authority, which means that in many cases for their safety, 
their mobility is restricted. They often travel in armored 
vehicles, which are also supported by our budget. They live in 
reinforced housing. There are a number of systems on the ground 
to track people.
    Senator Mikulski. But the NGOs do not travel that way. The 
contractors do not travel that way.
    Ms. Smith. Many of the NGOs do not. We have partner 
security liaison offices, which we work out with our partners 
in the field. We ask them in the most difficult circumstances 
to have risk analyses and risk mitigation plans, as well as 
plans for shutdown should security conditions require that they 
do so.
    Senator Mikulski. Well, I would like and I really wonder if 
the subcommittee would support the request, can we get a sense 
of your strategic plan for the protection of personnel, both 
USAID workers, USAID contractors, and the NGOs?
    Ms. Smith. We would be happy to provide that.
    [The information follows:]

    Although USAID's NGO partners do not fall under Chief of Mission 
authority, we have long recognized the importance of providing non-
prescriptive support to those charged with delivering programs on 
USAID's behalf.
    The Agency's Security Office's Critical and Emerging Threat Support 
(CETS) branch examines ways to provide operational training, proactive 
delivery of security information, and in-country support to our 
partners. CETS teams travel to countries at the request of Missions to 
provide security support to implementing partners. Over the past 12 
months the team has deployed to El Salvador, Honduras, Dominican 
Republic, Pakistan, and Sri Lanka and the Maldives.
    In certain high-risk locations, USAID Missions establish Partner 
Liaison Security Officers (PLSOs), which provide security support to 
our overseas implementing partners. This assistance includes the 
release of timely information on critical security and safety issues by 
phone, email, SMS, and in-person communication. PLSO positions also 
provide implementing partners an avenue for reporting security 
incidents and other critical information. Currently there are PLSOs in 
Afghanistan, Pakistan, Honduras and Nigeria, and the Agency is in the 
process of establishing them at the Kenya, East Africa, and El Salvador 
Missions. The Agency actively encourages the establishment of a PLSO at 
all high-threat Missions.
    The Agency also develops and delivers trainings and information to 
support our implementing partners. To date, more than 600 people 
deployed to more than 12 countries have attended the Security Awareness 
for Everyone (SAFE) training, a multi-day training designed to provide 
our implementing partners with a level of area-specific security 
training commensurate with what is provided to Chief of Mission 
personnel deploying to hostile areas. The Agency also developed five 
training DVDs (Operations Security, Information Integrity, Weapons 
Safety and Risk Management, Tactical Driving, and Staff Care) that are 
available to the Agency's Implementing Partners to provide baseline 
information, or reinforce the training they received at SAFE. To date 
approximately 400 sets have been distributed to USAID's implementing 
partners.
    A number of High Threat/High Risk Missions have made provisions 
regarding the security of awardees and grantees. This includes the 
mandatory submission of demobilization plans so that awardees can 
quickly draw down in the event of deteriorating security circumstances. 
Additionally, when reviewing security plans of potential awardees/
grantees, Contracting Officers may request that Partner Liaison 
Security Officers review proposed security budgets to ensure the 
budgets realistically reflect environmental threats.

                              ANITA DATAR

    Senator Mikulski. And then we have Anita Datar, who was 
killed in Mali in November. Do you have plans to commemorate 
her in some way?
    Ms. Smith. I think that we will. Those plans are not final.
    But as you rightly point out, we have USAID personnel, but 
also we have partners who in most cases are one and the same. I 
mean, our NGO partners, our contractor partners, we are all 
working in the same theaters, on the same issues.
    I think there is a very strong view among the staff, and it 
is one that I strongly support, that we should find a way to 
honor Anita and others from among our NGO contractor 
communities. So I think we will.
    Senator Mikulski. Well, I will look forward to 
recommendations by May 1.
    Ms. Smith. Absolutely. I would be delighted to provide 
them.
    [The information follows:]

    USAID will sponsor a commemorative ceremony at the U.S. Institute 
of Peace on June 7, 2016 with Palladium, the company with whom Ms. 
Datar worked, in honor or her life and service. Every year, the USAID 
Employee Memorial program recognizes USAID employees who have died in 
the line of duty while executing Agency programs. The Agency plans to 
provide formal recognition of implementing partner staff casualties 
with the addition of a new plaque during the 2016 memorial program. The 
Agency expects the annual Employee Memorial ceremony and the unveiling 
of the implementing partner commemoration to be held the week of June 
7, 2016. The Agency is also reviewing existing fellowship placement 
programs to determine how best to pay tribute to the fallen staff of 
implementing partners.

                                CHILDREN

    Senator Mikulski. My last question is this, children. You 
know my background as a social worker, so I do not want it to 
sound like a gushy question here, but I really worry about the 
children of the world.
    Children being recruited as child soldiers. In terms of 
Islamic State of Iraq and the Levant (ISIL), boys being 
recruited as terrorists or encouraged to do the most vile and 
repugnant and gruesome things. Girls, do we need to go over 
Boko Haram? Children in Central America, victims of gangs, 
victims of human trafficking. Children on the move to get to 
our country to escape not only economic deprivation but really 
also violence.
    As you look across this array of programs, because we tend 
to think of programs and stovepipes, has the agency thought 
about really--I know I sound like ``We Are the World'' and we 
are going to break into some kind of song here, but there is 
nothing to sing about--really, a comprehensive approach.
    Senator Graham, one-third of the children in Syria were 
born since the war began, so what is their life? What do they 
think about themselves, their future? And what do they think 
about us? Are we just going through generations of us being the 
evil empire?
    Could you share with us your thoughts on that, and plans on 
that?
    Ms. Smith. Yes. We do have a strategy for Children in 
Adversity.
    I worked for USAID during the Clinton administration. As I 
look at it now, where I think the Agency has made a tremendous 
improvement is something you mentioned. It is getting away from 
stovepiping and toward integration.
    Part of what that strategy enables us to do is look across 
the full spectrum of things that we do, at children and their 
lives, for example, whether that is in girls' education; in 
protection where we have provided protection to hundreds of 
thousands of kids in Syria; to child marriage; or interventions 
in health.
    So I think the challenge, as we have done in other areas of 
our work, on nutrition, on water, is looking across the whole 
spectrum of what we do, where are children involved, and how do 
we link those programs so that we have greater impact.
    I think that is something the Agency is poised to do better 
in and more of, and it is one of the things that we absolutely 
should look at.
    Senator Mikulski. Is that one of your priorities?
    Ms. Smith. I would say, yes, with a slight qualification. 
In all honesty, I was confirmed in December. I have 10 months. 
So I think what I can do is work with a very capable team that 
works on these issues and pull them together to see if we can 
align those things more fulsomely.
    Senator Mikulski. Well, my time is up, and the Chairman and 
the Vice Chairman have been very generous.
    I would hope that you would have on your senior executive 
team, when everything comes before you, decisions are being 
made, somebody saying, what about the children? Because this is 
one of the ways that we shape the attitudes toward our country, 
toward their country, to our country, to the world. If we do 
not focus on this, I think we are heading for a future 
disaster.
    Ms. Smith. I think you are quite right.
    Senator Mikulski. Thank you.
    Senator Graham. Senator Blunt.

                         CHILDREN IN ADVERSITY

    Senator Blunt. Thank you, Chairman.
    Thank you, Senator Mikulski. This is the topic I wanted to 
talk about as well.
    I serve with Senator Klobuchar as Co-Chairman of the 
Congressional Coalition on Adoption. In that role, and others, 
she and I and three House Members, Congresswoman Granger, 
Congresswoman Bass, and Congressman Franks, sent you a letter 
on this topic a month ago, February 16, on Children in 
Adversity. We asked seven questions.
    I read them again to figure out if they were so hard that 
they could not be answered in a month. Two of them were yes and 
no, so that would have been pretty easy. So five of them, a 
little more complicated than yes and no.
    But on this topic that Senator Mikulski brought up, 
Congress passed in 2005, the Children in Adversity legislation 
to come up with an action plan and implement it.
    You made a good point. You were not there. You just started 
this job, so I am going to be asking you to do what you can to 
make a difference here.
    They finally had come up with a plan in 2012. Finally came 
up with the six countries they would try the plan out in 2015. 
The legislation has to be fully implemented in fiscal year 
2017. So you are going to be there for 10 months, which is 
actually about half the time now we have to implement the 
entire plan of Children in Adversity.
    I just wanted to visit with you a little bit about that. I 
do not know why it took 10 years to come up with six countries. 
I hope we are really prioritizing implementing this. You 
already addressed the challenge that the children in so many 
places have.
    What are the six countries that you have decided would be 
the place to implement this?
    Ms. Smith. I can get back to you with that specifically.
    Senator Blunt. Does anyone behind you know what they are?
    So it took 10 years to come up with the six countries and 
nobody here knows--does anybody know any of them? Two of them?
    Ms. Smith. May I address----
    Senator Blunt. Sure. I am concerned that it took 10 years 
to come up with the six----
    Ms. Smith. No, I----
    Senator Blunt [continuing]. And nobody knows what two of 
them are or one of them. Surely, somebody--go ahead. Go ahead 
and talk about what we are going to do to get this implemented 
between now and September 2017.
    Ms. Smith. Yes. Look, I cannot speak to why it took so 
long.
    Senator Blunt. Right.
    Ms. Smith. I can tell you there are a number of strategies 
that I have seen adopted by the Agency over the years that were 
adopted with a handful of countries at the front end, five or 
six. There are probably 10 or 15 of those, and I apologize that 
I cannot name the six for this.
    But what I have seen happen that is positive, and what I 
think we can do here--and I would be happy to put this on a 
fast track given your observations about how long it has 
taken--is if you look, for example, at gender-based violence, 
where the Agency developed a strategy, proceeded to train 
people across the Agency to integrate gender-based violence 
programing into mission plans around the world, to bring it 
into informing even our humanitarian assistance work, so there 
is increased emphasis on protection of women in situations of 
conflict.
    So I think the Agency has the muscles and the capability to 
integrate plans like this. What I will do, sir--again, I 
acknowledge your comments about how long this has taken--is 
take a look at this one specifically, with an eye to seeing how 
we can do the same thing and do it as quickly as possible.
    I am happy to give you the countries, if you would like 
them.
    Senator Blunt. Go ahead.
    Ms. Smith. Colombia, Uganda, Rwanda, Armenia, Moldova, and 
Cambodia are the countries.
    Senator Blunt. And you know, they are scattered around in 
ways that you can try this in a number of different areas and 
see what works.
    Ms. Smith. Exactly.
    Senator Blunt. In fact, you are the one who mentioned 
Children in Adversity in response to Senator Mikulski's 
question about what are we doing for kids, so hopefully the 
implementation there will work the way it should.
    In the President's budget request this year, the Displaced 
and Vulnerable Children Fund at USAID is funded below enacted 
levels. This would probably be the principal fund for at least 
the action plan for Children in Adversity.
    Are you going to be able to fully implement the plan at the 
funding level that you have requested?
    Ms. Smith. I think, sir, looking at these countries and 
considering the ways we have done this in other areas where we 
have tried to layer in strategies such as this, I think there 
are multiple streams of funding that we can potentially draw 
upon--education, health, gender, women and girls. So I think we 
can take a look across-the-board.
    Senator Blunt. All right. I can submit my seven questions 
for the record as well, but you all have this letter, so you 
have had it a month. If you could look at those seven questions 
and respond to them, it would be very helpful.
    Ms. Smith. Will do.

    [Clerk's note: See Ms. Smith's responses to Senator Blunt's 
questions in the attachment to the USAID letter dated March 9, 
2016 that follows the USAID letter on the next page.]

    Senator Blunt. Thank you, Chairman.
    Ms. Smith. Absolutely will do.

    [The USAID letter responding to Senator Blunt dated and 
delivered March 17, 2016 follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [The attachment with the responses to Senator Roy Blunt's 
questions follows:]

                           ATTACHED RESPONSES

               Questions Submitted to Hon. Gayle E. Smith
                Questions Submitted by Senator Roy Blunt
    Question. Please provide an overview of the status of APCA goals 
and implementation in each of the six priority countries.
    Answer. Cambodia: In January 2016, the Cambodia National Council 
for Children (CNCC) launched a national plan to promote child 
development from 2016-2018. The plan promotes child protection and 
welfare in line with the United Nations Convention on the Rights of the 
Child (CRC), which was ratified by the Royal Government of Cambodia in 
1992. One of CNCC's main functions is to monitor Cambodia's 
implementation of the CRC. The Royal Government of Cambodia is also 
expected to launch its Action Plan on Violence against Children in the 
spring of 2016. This coordinated national response results from the 
findings of the Violence Against Children Survey (VACS) administered by 
the U.S. Centers for Disease Control (CDC), the Government, the United 
Nations Children's Emergency Fund (UNICEF) and partners in 2013 (APCA 
Objective 3). Results were released in 2014, marking the first time 
Cambodia had national statistics on sexual, physical, and emotional 
violence against children.
    U.S. Government assistance in Cambodia works at both policy and 
operational levels to build the systems and capacities needed to 
support and enable families to care for their children; prevent 
unnecessary family-child separation; and promote appropriate, 
protective and permanent family care in order to reduce the numbers of 
children living in orphanages and other residential care institutions. 
To achieve these ends (APCA Objective 2 and 3), APCA programs in 
Cambodia aim to: increase access to quality child protection and social 
welfare services; link separated children or children at risk of 
separation to family reunification, community reintegration and other 
alternatives to institutionalization; and support targeted 
interventions to improve the delivery of child protection services, 
including training to enhance knowledge and skills in child welfare, 
and the development of systems and policies to strengthen child 
protection approaches. APCA programs will ultimately enable government 
officials at national and subnational level, as well as nongovernmental 
partners, to prevent maltreatment of children and help transition 
children into family and community-based care.
    As a result of USAID/DCOF support, vulnerable children and their 
families in five target provinces have access to specialized, high 
quality child protection and social welfare services. Specifically, 
this support benefited a total of 5,618 children (44 percent for 
girls), 2,225 youth and 3,379 families during the first three quarters 
of 2015. Separated children in these provinces are thus able to access 
services for family reunification, community reintegration and 
alternatives to institutionalization, as well as receive quality care. 
Targeting children living outside of protective care, programs also 
supported a total of 860 children (including 319 girls) with case 
management services; this number includes 305 children successfully 
placed in family based-care.
    In addition, USAID is working to improve children's development 
outcomes in Cambodia by improving diets and feeding practices within 
the first 1,000 days of their lives and by reducing the prevalence of 
diarrhea and parasitic infections among this target group (APCA 
Objective 1). USAID-funded programs enable health and nutrition 
professionals to educate caregivers about hygiene, sanitation, and 
positive parenting practices to foster healthy social and emotional 
development and promote secure attachment to a primary caregiver. USAlD 
is also working with the private sector to develop and market 
sanitation, hygiene, and household water-treatment products such as 
water filters and latrines. Through these efforts, the U.S. Government 
is reaching approximately 30,000 Cambodian mothers and children living 
in households below the poverty line. These interventions are 
contributing to reductions in undernutrition and micronutrient 
deficiency among mothers and children under five and improvement in 
children's growth and developmental outcomes.
    Uganda: Uganda's National Development Plan (NDPII) prioritizes 
human development--encompassing health, education, child protection and 
social protection--as one of its key outcome areas. To advance the 
national plan and underscore government commitment to the well-being of 
children, the Government of Uganda (GOU) convened a national-level 
State of the Ugandan Child Forum in October 2015. To prepare for this 
forum, the U.S. Government supported development of the State of the 
Ugandan Child Action Plan, which contains priority activities, 
measurable actions, indicators and targets across the human development 
sphere. The forum helped catalyze country and external commitment and 
action to address agreed-upon critical needs in education, health, 
protection, and child development, particularly girl children. Regional 
level meetings are currently underway to promote local input and 
facilitate country wide endorsement of the plan.
    USAID/DCOF's implementing partners are working in 12 districts to 
strengthen government capacities to inspect and monitor residential 
child care institutions, to prevent unnecessary family separation, to 
reunify and place children in family care, and to strengthen families' 
capacities to provide adequate care for their children (APCA Objective 
2). Programs have facilitated the establishment of two district-level 
Alternative Care Panels to inspect institutions using government-
endorsed inspection tools. Last year, panel members inspected 58 
institutions and established case files for over 1,500 children to 
track and prepare them for family placements. USAID/DCOF programs also 
catalyzed the establishment of community savings groups and supported 
development of a cadre of country trainers to provide psychosocial 
support and training in positive parenting.
    USAID's Office of HIV/AIDS (OHA), with funding from the President's 
Emergency Plan for AIDS Relief (PEPFAR), complements the above work by 
strengthening child welfare and protection structures and services at 
district and sub district levels (APCA Objective 3). To date, programs 
increased staffing of social welfare positions from 41 percent to 57 
percent in district and subcounty staffing across 80 of Uganda's 112 
districts, achieved through collaboration with district governments. 
Additionally, programs helped train thousands of social service 
workers, parasocial workers, and volunteers responsible for social 
welfare services at the parish level. Parasocial workers act as child 
protection advocates in their communities, sharing guidance on 
alternative discipline techniques, advocating for girls education and 
against early marriage, and referring children to the appropriate 
service. As a result of this assistance, families and children have 
increased awareness of their rights and know where to get help and how 
to report child protection concerns. USAID programs also helped 
strengthen community child welfare committees and trained key district 
officials, resulting in an increased ability of government to 
coordinate social services. These committees have furthered 
partnerships between different development sectors within local 
government and between government and civil society to provide a more 
comprehensive response to child welfare and protection needs.
    Rwanda: The Government of Rwanda (GOR) published a Plan of Action 
for Orphans and Vulnerable Children in 2007, refocusing the plan in 
2009 to address the country's most vulnerable children. The GOR is 
actively transforming Rwanda's current alternative care model into one 
that prioritizes family-based care. The new system provides assistance 
to families at-risk of separation from their children and encourages 
communities to support children living outside of families through 
adoption or fostering--as opposed to institutional care. In 2012, the 
GOR issued a Cabinet Brief, a Strategy for National Child Care Reform, 
with the goals of transforming the child care and protection system to 
one that is family-based and that encourages all Rwandans to take 
responsibility for vulnerable children.
    USAID/DCOF programs have successfully integrated a total of 955 
children and young adults into family and community based care (APCA 
Objective 2). Programs are also currently tracing an additional 1,222 
children who were unilaterally sent home by residential institutions in 
order to assess their circumstances and provide appropriate assistance. 
USAID/DCOF further supports targeted programming to build the capacity 
of the National Council for Children, an entity specifically created to 
provide the nexus for inter-ministerial coordination, as well as 
operational research on children's issues. These programs help identify 
the most effective case management approach to reintegrating 
institutional children into family care.
    PEPFAR/USAID-funded assistance has reached 79,579 orphans and 
vulnerable children (OVC) with a number of services, including 
education and vocational training, healthcare, psychosocial support, 
shelter and care, and protection (APCA Objective 1 and 3). PEPFAR/USAID 
programs promote a family-centered and case management approach to 
strengthen families and improve child wellbeing. Specific activities 
include savings groups, food security, child protection, parenting 
skills, community-based health insurance groups, water and sanitation 
(WASII), and early child development activities. In addition, programs 
invest in civil society organizational capacity building for 
sustainability. Communities are involved in all aspects of OVC 
programming, including identification of children, selection of 
volunteers and service delivery. CDC, with funding from PEPFAR, is also 
working with the Government of Rwanda on its first Violence Against 
Children Survey (VACS).
    Moldova: Illustrating its steady commitment to advancing national 
reforms to promote child welfare, Moldova's Strategy on Child and 
Family Protection for 2014-2020, approved in 2013, aims to build the 
conditions necessary for raising and educating children in a family 
environment; prevent and eliminate child abuse, neglect and 
exploitation and promote non-violent practices in raising and educating 
children; and harmonize family life and professional responsibilities 
to ensure appropriate child development. To support these broad range 
of issues, the government has also developed strategies on children 
with disabilities, children in conflict with the law, child 
trafficking, children and family issues, and children from minority 
groups.
    While Moldova's Early Child Development Index score for 3-5 year 
olds is reasonably high at 84 percent, only 36 percent of children 
younger than 6 months are exclusively breastfed and 11 percent of 
children in the poorest quintile are stunted. APCA partners have 
therefore engaged in a ``strong beginnings'' intervention (APCA 
Objective 1) that includes a package of simple child development 
messages and interactive activities for household caregivers. The 
package emphasizes the important role parents and other family members 
play in enhancing positive development outcomes and offers culturally 
relevant ways of ensuring responsive care and stimulation during a 
child's first 1,000 days of life. The aim is to make progress on age/
stage-related developmental milestones and on indicators of physical 
growth, including stunting.
    USAID/DCOF activities in Moldova aim to strengthen family care for 
100,000 children who lack adequate family care, prevent 4,000 children 
from unnecessary family separation, and enable 3,000 children outside 
family care to receive such care (APCA Objective 2). USAID is also 
supporting CDC implementation of a VACS, which will provide much needed 
evidence to address APCA Objective 3.
    Armenia: USAID/DCOF programs are assisting the Government of 
Armenia to reform its national child care system by strengthening 
community-based family support services, establishing a national system 
for alternative family-based care, and supporting the establishment of 
a legal and regulatory framework to support child-care reform (APCA 
Objective 2). Activities have enabled the Ministry of Labor and Social 
Affairs to revise its national alternative childcare framework; 
contributed to the development of a legal framework to improve adoption 
practices and foster care; supported the development of normative 
legislation on inclusive education in order to prevent the unnecessary 
institutionalization of children with disabilities and enable children 
to attend mainstream schools; and assessed children in targeted 
residential care facilities to begin preparations with families for 
child reunification and reintegration.
    USAID named Armenia as a priority country in late 2015, and is now 
working with the Government of Armenia to eliminate the establishment 
of new residential institutions, eliminate the admission of new 
children to residential care institutions targeted for transformation 
or closure, and eliminate the transfer of deinstitutionalized children 
to other residential care facilities unless it is a last resort (APCA 
Objective 2). The Government has committed to take required policy 
actions to ensure the newly established and/or expanded alternative 
community-based services are fully funded from its national budget. As 
a result, over the next several years, USAID's support will enable the 
Government of Armenia to incorporate alternative community-based 
services into annual budget plans, to develop monitoring tools to 
oversee the process of transition for each target institution, and to 
establish systems of quality control to monitor child care services.
    Colombia: The Government of Colombia (GOC) has developed a multi-
sectoral Early Childhood Development (ECD) strategy and implementation 
plan. In 2010, the GOC introduced the comprehensive ECD strategy, From 
Zero to Forever. The national strategy, endorsed by all relevant 
sectors, seeks to ensure that every child in Colombia, particularly the 
most vulnerable, is guaranteed the constitutional right to free 
healthcare and education in the early childhood years. From Zero to 
Forever includes a set of national and district-level actions to 
promote intersectoral work to improve comprehensive early childhood 
interventions. The strategy focuses on comprehensive child development 
and enhanced inter-governmental collaboration through a joint 
commission that brings together the Ministries of Culture, Social 
Prosperity, Education, and Health as well as the National Institute of 
the Family; and emphasizes approaches that address territorial and 
cultural differences.
    USAID named Colombia as a priority country in late 2015. In 
collaboration with the interagency, USAID has begun discussions on APCA 
implementation with the GOC. APCA interagency partners will conduct a 
joint visit during the first half of 2016 to complete planning for APCA 
implementation in this newly designated priority country.
    Question. Referencing the U.S. Department of State's Office of 
Children's Issues' list of countries receiving technical assistance for 
adoption, please detail the support that USAID is also providing to 
these countries either through APCA or another child welfare-related 
program.
    Answer. The Department of State works diligently to support 
intercountry adoption as a viable option for children in need of 
permanency throughout the world. The Department believes the Hague 
Adoption Convention (Convention) is an important tool that supports 
this goal. To this end, the Department encourages countries to develop 
robust domestic child welfare policies that support family 
reunification where appropriate, and domestic adoption, and to become 
party to the Convention, even as they continue to process intercountry 
adoptions while such efforts are underway.
    To assist countries in their efforts, the Department strongly 
supports the Hague Permanent Bureau's Intercountry Adoption Technical 
Assistance Program (ICATAP), which provides assistance directly to the 
governments of certain countries that are considering becoming parties 
to the Convention, or that have become party but seek to improve their 
practices under the Convention.
    As in the past, the Department of State makes extensive efforts to 
offer technical consultation to help promote a smooth transition and 
continuous adoption processing for countries that are considering or 
are close to becoming partners under the Convention. The Department is 
also evaluating ways to assist countries of origin to address 
deficiencies that hinder adoptions to the United States and exploring 
what resources might be available to address areas of concern, 
including public private partnerships.
    Many of the countries with which the Department of State works on 
adoption are not APCA priority countries. However, USAID and Department 
of State programs currently interface in APCA priority countries: 
Uganda, Armenia, Moldova, and Cambodia. Programs in each of these 
countries help advance the deinstitutionalization of children and 
reintegration of children into family-based care by strengthening 
country policies, systems and capacities in child welfare and 
protection, as detailed below:

  --Uganda: USAID/DCOF activities aim to ensure that children are in 
        protective and permanent family care in Uganda by reducing the 
        risks of unnecessary separation of children from their families 
        and facilitating placements of children outside of family care 
        into nurturing families. At the policy level, USAID/DCOF 
        supported the development of the National Action Plan for 
        Children's Well-Being, a cross sectoral program overseen by the 
        Prime Minister's Office. USAID/DCOF programs are also helping 
        to roll out and operationalize the 2012 National Alternative 
        Care Framework by building local and community systems and 
        capacities to provide oversight of child care institutions, 
        serve as gatekeepers for new admissions, and conduct regular 
        home visits to monitor the status of children reunified with 
        families and children under foster care.
  --Armenia: USAID/DCOF assistance is enabling the Ministry of Labor 
        and Social Affairs to develop and implement policies to ensure 
        national compliance with the U.N. Guidelines on Alternative 
        Care for Children. Policies will, for example, promote the 
        closure of residential child care institutions, advance the 
        reunification of children with families and placement of child 
        residents into family care, and improve the capacity of 
        families to care for their children.
  --Moldova: USAID/DCOF works with the Ministry of Labor, Social 
        Protection and Family; the Ministry of Education; and other 
        relevant Ministries to strengthen national child protection 
        systems and legislation as well as to develop and enhance 
        social policies to prevent family-child separation and protect 
        children outside of family care. Programs assist ministries to 
        work with local government authorities across the country to 
        ensure that national child protection policies are implemented 
        and communicated to the public.
  --Cambodia: USAID/DCOF works with UNICEF and Government Ministries to 
        improve enabling child protection policies and strengthen child 
        welfare systems. USAID/DCOF-supported work on the enumeration 
        of children outside of family care will help inform approaches.

    Question. To what extent has APCA influenced USAID's overall child 
welfare assistance and policies?
    Answer. Since APCA got underway, USAID has taken important steps to 
demonstrate its ongoing commitment to institutionalizing the principles 
of APCA. USAID has done this through the consolidation and 
strengthening of child safeguarding provisions for Agency personnel, as 
well as through the codification of regulations applicable to USAID-
funded implementing partners in order to advance APCA Objective 3, to 
``Protect Children from Violence, Exploitation, Abuse and Neglect.''
    Specifically, USAID added mandatory requirements on child 
safeguarding to Agency policy provisions. These provisions require 
partner organizations working under grants or cooperative agreements to 
adhere to a number of child safeguarding principles in order to reduce 
the risk of child abuse, exploitation or neglect within USAID-funded 
programs. Among these, partners must prohibit employees from engaging 
in child abuse, exploitation or neglect; institute procedures requiring 
personnel to report on allegations; and have in place systems for 
investigating, managing, and taking appropriate action on any such 
allegations. USAID's child safeguarding policy also mandates 
organizations to consider child safeguarding within project planning 
and implementation in order to determine potential risks to children 
associated with USAID-funded activities and operations, and to apply 
measures to reduce these risks. The new USAID Child Safeguarding 
mandatory provisions for grants and contracts complement the USAID 
Counter Trafficking in Persons (CTIP) Code of Conduct by expanding the 
range of actions under the C-TIP Code of Conduct to specifically 
include abuse, exploitation or neglect of children.
    In addition, the Agency issued a mandatory policy for USAID 
personnel, which prohibits all USAID personnel from engaging in child 
abuse, exploitation or neglect. USAID treats such allegations as 
suspected cases of employee misconduct that must be reported to the 
USAID Inspector General.
    In updating its global education strategy this year, USAID 
incorporated language underscoring the importance of safeguarding 
children's well-being and eliminating gender-based violence and 
discrimination in educational environments. The revised strategy makes 
specific reference to APCA Objective 3 as one of the U.S. Government's 
key strategies promoting the integration of school-related gender-based 
violence interventions into education programs.
    USAID's Office of Foreign Disaster Assistance (OFDA) field-level 
programming, investments in emergency child protection capacities at 
the global level, and efforts to strengthen the policy environment, 
also made significant contributions to the achievement of APCA 
objectives, particularly in humanitarian settings. For example, USAID/
OFDA supported 12 global programs designed to advance policies, 
practices, and research on effective child protection interventions in 
emergencies. The programs led to: the development of a tool kit for 
improved monitoring of country-level child protection response; 
regional and country specific workshops to help adapt child protection 
minimum standards to local contexts; the design of technological 
innovations to improve child protection programming, monitoring, and 
reporting; and the establishment of program models for safe healing and 
learning space in emergencies. USAID/OFDA also required humanitarian 
partners to adopt and operationalize codes of conduct that are 
consistent with the Inter-Agency standing committee's six core 
principles for protection from sexual exploitation and abuse.
    Finally, building on its multi-sectoral nutrition strategy launched 
last year, USAID developed technical guidance to assist country 
missions in programming cross-sectoral nutrition and child development 
programs for optimal impact. This effort supports the goal of 
institutionalizing more comprehensive child development approaches. In 
addition, USAID facilitated rollout of the multi-sectoral strategy in 
Rwanda and Cambodia. As a result of this support, USAID Cambodia is now 
initiating comprehensive child development programs to foster child 
well-being and healthy social and emotional development, achieving the 
impact noted above.
    Question. Has USAID conducted a review of policies and programs 
related to children in adversity in light of Public Law 109-95?
    Answer. Since initiating work under APCA, USAID has given ongoing 
focus to reviewing and strengthening both the programs and policies 
needed to improve the development and well-being of children in 
adversity. Public Law 109-95 specifically indicates, moreover, that to 
improve targeting and appropriate programming of resources, USAID shall 
``develop methods to adequately track the overall number of orphans and 
other vulnerable children receiving assistance, the kinds of programs 
for such children by sector and location, and any other such related 
data and analysis.
    Over the past few years, to focus APCA programming including in 
priority countries, USAID has been dedicated to building a robust 
evidence base that can be used to inform program planning and 
implementation for vulnerable children as well as to facilitate 
effective targeting of programs for optimal impact on children's well-
being. For example, in Cambodia, USAID has field tested an approach to 
enumeration that will generate nationally representative estimates of 
children outside of family care; this methodology can serve as a model 
for other countries. In Rwanda, Uganda and Cambodia, USAID/DCOF 
initiated programs in applied research to identify interventions that 
most effectively reach children at significant risk of family 
separation. Research activities include pilot interventions to 
strengthen the child care capacities of caregivers. USAID/DCOF also 
initiated a package of multi-year applied research activities to better 
understand how interventions such as household economic strengthening 
and positive parenting may reduce the risks of children separating from 
their families.
    USAID/DCOF is supporting research to generate improved 
understanding of how household economic strengthening can help prevent 
unnecessary family separation and support the reintegration of children 
into family care. The findings of this research are expected to inform 
future U.S. Government programming, as well as programming to 
strengthen family care across governments and organizations. Finally, 
data from USAID-commissioned evaluations of programs in Moldova, Uganda 
and Cambodia that supported Objective 2 are now helping to inform the 
detailed planning of USAID assistance activities in these countries.
    Question. Has USAID released Annual Report as required by Public 
Law 109-95? If not, what is timeline for submission?
    Answer. The Annual Report is currently in draft and under review by 
Agencies. USAID is expecting to release the report by April 15.
    Question. What barriers do you see to the full implementation of 
APCA? Are further actions requested from Congress to ensure 
implementation?
    Answer. USAID remains committed to the full implementation of APCA 
based on a strong and collaborative interagency approach. To this end, 
just past the midway point of the 5 year Action Plan, USAID convened 
interagency representatives in mid-December to jointly review progress 
to date on the APCA partnership and consider coordinated efforts going 
forward. Participants reflected on the effectiveness of APCA 
interagency work, discussed challenges and opportunities in 
implementing the Action Plan, and considered how to improve 
collaboration to optimize impact on APCA, particularly in priority 
countries.
    While affirming the interagency's continued commitment to APCA as 
both a strategy and partnership, Agency representatives uniformly 
articulated the many continuing challenges to APCA implementation, 
including budgets guided by different funding streams and related 
legislative and administrative requirements, inadequate human and 
resources bandwidth, and different Agency missions and program 
mandates.
    Participants emphasized, however, that despite these constraints 
and without dedicated funding for APCA, Agencies have effectively 
applied existing limited resources to advance the achievement of Action 
Plan priorities. In moving forward, interagency representatives agreed 
to continuing improving cross-governmental coordination and leveraging 
of efforts on APCA. Agency representatives also agreed on the 
importance of expanding partnerships beyond the U.S. Government, to 
include other donors working in the sector as well as the emerging 
Global Partnership to End Violence Against Children in support of the 
U.N.'s Post 2015 Sustainable Development Goals (SDGs).
    Question. What steps is USAID currently taking to evaluate past 
implementation challenges and make recommendations for the Action Plan 
post-2017?
    Answer. Looking ahead to post-2017, USAID and its interagency 
partners are committed to building on APCA as a strategic framework, 
embedding APCA as an enduring policy within Agencies, and using APCA as 
a driver to institutionalize interagency collaboration, including 
beyond priority countries. Further, in line with mid-December 
interagency discussions on APCA, USAID is working to collaboratively 
develop approaches to enhance APCA governance, coordinated country 
planning, and communications.

    Senator Graham. Senator Leahy.

                     FOREIGN ASSISTANCE DEPENDENCY

    Senator Leahy. Thank you very much.
    I look at how USAID is trying to adapt to changes in the 
way development is financed by increasing partnerships with the 
private sector and encouraging governments to increase 
collection of revenue.
    You said something last week that speaks to a broader 
issue, which is that development is not something that you do 
to people.
    I have urged USAID, both in Republican and Democratic 
administrations, to move away from a model that too often 
dictates to local populations what needs to be done or does it 
for them without asking who benefits.
    Are you at all concerned that some of our programs may do 
more to reinforce dependency than foster self-reliance?
    Ms. Smith. I think that is a good question. I think that is 
an area, Senator, where we have actually made a great deal of 
progress. I would point to three examples.
    One is Feed the Future, which as you know was this 
Administration's first major development initiative. That 
program is predicated on countries having their own plans for 
food security and us working with them to invest in those 
plans. So from the outset, the agenda, the plan, and the 
strategy is developed by the countries themselves. We have 
found that that provides for greater sustainability and for 
less dependency.
    Similarly, under USAID Forward and the drive to rely more 
on local solutions and local partners, we are now at the point 
where 16.9 percent of mission funds are programmed through 
local partners, which, again----
    Senator Leahy. What percentage?
    Ms. Smith. Sixteen-point-nine percent of mission funding. 
What that does is it brings us closer to the ground, but it 
also helps build the capacity of those organizations.
    I also think we are finding that in health increasingly, 
and at increasing speed, the ownership of programs is much 
greater than it has ever been in the past. In a lot of areas, 
in HIV/AIDS and other things, we started out very much in 
relief mode, quite frankly, filling a gap. Now what we are 
seeing in an increasing number of countries that are putting 
more money in the budgets. They are developing the plans, 
whether it is for HIV/AIDS, malaria, or other diseases. So I 
think there is progress on that front, but I think it is 
something we always have to keep front and center, so that we 
are really looking to make sure that decisions and strategies 
are locally owned and, therefore, more sustainable.

                          USES OF EBOLA FUNDS

    Senator Leahy. There are some who suggest that we use the 
remaining Ebola funds not to combat Ebola or do things to 
prevent another Ebola epidemic, but to combat the Zika virus. 
How do you feel about that?
    Ms. Smith. I have some concerns about that, quite frankly, 
Senator.
    I appreciate the time and attention that Members of the 
Senate and of the House have given to the issue of Zika as we 
look at it now, and we think it is serious enough that we have 
identified a small amount of money, $2.5 million, that we can 
go ahead and move out on some public information and 
communications campaigns in countries affected, so people know 
how to protect themselves.
    The concern about drawing on Ebola money, and I say this as 
somebody who for 14 months, and from the beginning really, 
worked this every single day----
    Senator Leahy. That is why I asked the question.
    Ms. Smith. There is still a lot to do. First of all, we 
have to be prepared for any case and an eventual outbreak. We 
were fortunate that the case in Nigeria did not turn into a 
major outbreak. But I say ``fortunate.'' There is a chance that 
that could happen again. We have to be prepared for that.
    We have to help the three countries that were most affected 
build back their health systems so they do not remain 
vulnerable--again, we have seen cases in recent weeks, as you 
know--so they can maintain the capacity to do lab testing, have 
health care workers who are trained, so that, again, we can 
respond very, very quickly.
    The Global Health Security Agenda is part of what we are 
using Ebola money for, as directed by Congress and very much 
with our thanks for the support of the emergency request for 
Ebola. It is the development solution, if you will. It is 
building the capacity of countries to prevent, detect, and 
respond.
    The last thing I would say, Senator, is there is still a 
lot that we do not know. There has never been this large of a 
pool of Ebola survivors. We are working with other agencies, 
the CDC and others, are studying some of the findings. And I 
think we need to be fully prepared to respond to any 
eventuality that may arise.

                              AFGHANISTAN

    Senator Leahy. USAID, not counting the other trillions of 
dollars we spend, has spent over $17 billion since 2002 on 
development projects in Afghanistan, even though there are 
increasing problems with oversight. The U.S. military has 
reduced their presence there. I know a lot of States would give 
anything to have a fraction of that amount of money to help 
people who need it in the United States.
    We understand that USAID is using what it calls, and I love 
these bureaucratic terms, multi-tiered monitoring, ranging from 
direct observation by the U.S. Government to reports from the 
contractors that we pay to monitor projects.
    The inspector general found numerous problems. Of the 127 
awards the inspector general reviewed, there is evidence that 
multi-tiered monitoring out of those 127 was used as designed 
for only one, even though USAID's mission statement for 2013 
said they would not implement any projects that could not be 
effectively monitored.
    I do not consider one out of 127 as being effective. If you 
are going to spend $1 billion in Afghanistan and unable to 
monitor its use, how do we know what we are paying for, what is 
sustainable? I think of the huge amount of money we have for 
reducing poppy cultivation. It has not done diddlysquat as far 
as reducing it or replacing it with crops people can live on.
    As you see can see, I am not a huge fan of the program in 
Afghanistan.
    Ms. Smith. I detected that, sir. Let me respond. In the 3 
months I have been at the agency, I have spent a fair amount of 
time looking at Afghanistan, and I would share three 
observations in response to your question.
    The first is, I think this may be the hardest mission given 
to the men and women of USAID. It is a difficult transition. 
Afghanistan was not poised for sustainable development before 
the many wars it has seen in the last 20 to 30 years. So it is 
a hard, uphill climb.
    The second observation is I have been pleasantly surprised 
by some of the progress, despite all of that. If you look at 
the fact that electricity access has gone from 6 percent to 28 
percent. Enrollment in schools has gone from 1 million to 8 
million, many of them girls. University enrollment has gone 
from 8,000 to 174,000. And now 60 percent of the population 
lives within 2 hours of a health facility. It is not enough, 
but it is progress in the face of very difficult circumstances.
    In the specific instance that you referred to on multi-
tiered monitoring, which is what our teams have to rely on in 
large measure because they do not have the mobility we might 
like them to have, the OIG report to which you refer was one 
that was actually requested by USAID at the behest of our 
mission to take a look at the gaps in the multi-tiered 
monitoring system. Obviously, the inspector general found many, 
as you rightly point out.
    As of right now, three of the nine recommendations that 
were made have been closed, which means that they have been put 
in place. And the remaining six are on track to be closed by 
the end of this year.
    Senator Leahy. My time is up, but we should discuss this 
some more.
    Ms. Smith. I would like to do that. Thank you.
    Senator Graham. Senator Moran.
    Senator Moran. Chairman, thank you. Thank you to you and 
the ranking member for hosting this hearing.
    Administrator, welcome. There are a few students from 
Kansas State University in the audience behind you. They have 
been on Capitol Hill today advocating for USAID.
    Ms. Smith. Thank you.
    Senator Moran. I knew that you would connect with them. 
They are actually using their spring break to be here in 
Washington, DC, on behalf of the mission of USAID. I thank 
them, and I thank you.
    I also sit on the Labor-HHS Subcommittee, and I want to 
talk to you little bit about Zika and a little bit about Ebola.
    Ms. Smith. Yes.

                               ZIKA VIRUS

    Senator Moran. The President requested $335 million for 
USAID to combat the Zika virus. The bulk of that funding, $828 
million, is earmarked for the CDC. I am interested in knowing 
what your conversations have been, how you are coordinating, 
what do USAID and CDC do together to make a difference?
    Ms. Smith. Thank you for that question.
    And an extra shout-out to the Kansas State students. It is 
nice that they are here. It is nice that they are advocating 
for USAID and especially nice that they are doing that on their 
breaks.
    We work with CDC a lot. We got our main start working with 
CDC on HIV and AIDS under the President's Emergency Plan for 
AIDS Relief (PEPFAR). Our most recent experience was really--I 
am tempted to say helpful, but that is not a word that lends 
itself to the Ebola response. But actually, we worked hand-in-
hand in that, where USAID led the Disaster Assistance Response 
Team (DART) teams in the field. CDC had the deputy position.
    The difference we made in that case, as I would describe 
it, is CDC brought to bear the main epidemiological expertise 
that was needed to help us adapt our responses according to the 
actions of the Ebola epidemic.
    So in the case of Zika, CDC has the primary role in working 
with governments and partners and public health facilities to 
manage their systems and their responses to Zika with 
particular emphasis on the epidemiology.
    On the USAID side of the equation, our interventions are 
primarily three.
    One is on public information, just getting information to 
people about what they need to know about this virus, how they 
need to protect themselves.
    The second is on maternal health. As we know, women are 
affected, in particular, and their children, so again, we want 
them to have the information they need to protect themselves, 
but also have the care they need should they get Zika and 
should they give birth to a child that suffers the impacts of 
microcephaly.
    The third is on vector management, which is about removing 
the standing water, doing the spraying, and other things that 
can be done to try to get to the mosquitoes themselves. We have 
a role in that, based on our work on malaria around the world. 
CDC's role there is as new insecticides are developed that are 
more responsive to the specifics of this mosquito, we would 
work with them to make sure we are incorporating their findings 
into the work that we do.

                             EBOLA RESPONSE

    Senator Moran. Thank you. When we have the Director Frieden 
in front of us, I have an opportunity to ask him a similar 
question and make sure that this is a concerted, cooperative 
effort.
    It seems to me the Inspector General was critical of 
USAID's Ebola response, indicating it lacked adequate 
performance measures. I remember these days when the lead 
agency was USAID and then we had an Ebola czar. Where did we 
end up with performance measures? And what did we learn from 
Ebola that will mean we will do things better, assuming you 
agree with the Inspector General's analysis?
    Ms. Smith. I was not at USAID at the time. I was at the 
National Security Council and very involved in the coordination 
of the response.
    I would have to say on performance, having had some 
experience in my life and career in both health and emergency 
crisis response, I think the performance was quite impressive. 
We beat a lethal epidemic the world had never seen before, 
where there was no capacity on the ground to manage it, an 
insufficient number of health care workers, labs, and so forth. 
I think together the work that USAID and CDC did was quite 
impactful.
    Now, we look at what we can learn from that in three 
important ways. One is in our emergency response, the teams 
continually look at how we can fine-tune those responses and 
the work of our DART teams.
    The second is to look at how, in terms of capacity, both 
through the Global Health Security Agenda, but also the work we 
do in health, we can be doing more and better to build the 
kinds of systems and capabilities that would leave a more solid 
foundation on the ground when these situations arise again, 
which they certainly will.
    The third is to look with partners--all agencies, in fact, 
looked at this--at what had been learned and what we need going 
forward as a government to respond to these kinds of crises. 
That would involve USAID and CDC and the State Department and 
others looking together where we have complementarity, where we 
have any duplication, where we may have gaps.
    Senator Moran. Thank you very much. I, certainly, want to 
add my compliment to the efforts on Ebola. There was a lot of 
criticism, but the outcome, I think, was an amazing success to 
date and demonstrates that we can respond to make a difference.
    Ms. Smith. Thank you.

                             CHILD MARRIAGE

    Senator Moran. I want to talk just for a minute--I have a 
minute and 13 seconds left--child marriage has increased during 
times of conflict. And in the Syrian refugee communities in 
Jordan, United Nations Children's Fund (UNICEF) reports that 
the proportion of registered marriages that involve girls under 
the age of 18 has risen from 12 percent in 2011 to 32 percent 
in 2014. How can birth registration discourage this practice 
and protect vulnerable girls in conflict from being involved in 
trafficking?
    Ms. Smith. Those are terrible statistics. Unfortunately, we 
are seeing incidences of child marriage around the world that 
are quite alarming.
    We approach it broadly in a number of ways. One is to work 
with and support married children who suffer greatly, as you 
can imagine. The second is to work with communities and 
countries to change the norms on child marriage, actually 
change their laws. But also work at the community level that 
socializes the notion that, for lots of reasons, children 
marrying is not a good thing. Third, we try to bring others to 
the table, whether it be other donors, the private sector, 
other voices that can elevate this issue.
    In circumstances like refugee camps and environments like 
those surrounding Syria, it is especially difficult, because 
you do not have even the rudimentary infrastructure of 
registration that you might have in a community that is settled 
in its own homeland.
    In those cases, what we try to do and what the State 
Department tries to do with the United Nations High 
Commissioner for Refugees (UNHCR) is put in place those kinds 
of systems for birth registration, which is very impactful in 
terms of trying to trace both the births, particularly of 
girls, but then trace their well-being going forward.
    Senator Moran. Thank you. You attempted to visit with me 
prior to this hearing. It was my schedule that did not allow 
that to happen. I thank you for the outreach and look forward 
to getting acquainted with you.
    Ms. Smith. I look forward to it also. Thank you, sir.
    Senator Graham. Senator Coons.
    Senator Coons. Thank you, Chairman Graham.
    And thank you, Senator Moran and Chairman Graham, for your 
interest in the line of questioning around Ebola and Zika. One 
of the things that I find most encouraging about our work on 
this subcommittee is the genuine bipartisan interest in 
ensuring that USAID's valuable work around the world is as 
efficient as it can be and as sustainable as it can be.
    Administrator, you have already had a long and impressive 
career in tackling some of the world's toughest challenges. You 
certainly have stepped up to yet another, so thank you for what 
you are already doing in your current leadership role.

                         GLOBAL DEVELOPMENT LAB

    Let me talk about the Global Development Lab, if we might 
for a moment. One of the things that your predecessor was 
particularly passionate about was bringing analysis and science 
and better data quality to some of the work of the USAID, which 
I supported and commend.
    The Global Development Lab is designed, in your testimony, 
to take smart risks, to test out new ideas, and scale 
successful solutions. I think that is a great idea.
    What do you think we need to do together to authorize it, 
to fund it, and to sustain it?
    Ms. Smith. Thank you. And thank you also for your comments 
on Ebola. The bipartisan support was helpful but I would also 
note that it is helpful across-the-board. One of the pleasures 
of this job is to be able to work with that bipartisan 
understanding and support.
    The Lab is really a valuable addition to the Agency. I 
think part of my challenge and our challenge over the coming 10 
months is to figure out how we can more effectively integrate 
it within the Agency, while enabling it to do the innovative 
work that it was created to do, so that we are positioned to 
take some of those innovations to scale.
    We have made requests in the fiscal year 2017 budget for 
some authorities that would allow the Lab to quickly bring 
people on for specific tasks. We have included funding for the 
Lab. We are able also through the Lab and also throughout the 
Agency to bring private sector partners to bear. I think that 
is something we need to be able to continue to do.
    I think, with your support, we can actually do that and 
make this a very, very valuable force multiplier for the Agency 
for the next decade.

                        DEMOCRACY AND GOVERNANCE

    Senator Coons. I am hopeful that we will continue to work 
on that this year. As you mentioned, this is a year that seems 
likely to be dedicated to institutionalizing and funding some 
of the stronger initiatives, whether it is Power Africa or Feed 
the Future. My hope is that the Development Lab also is counted 
among them.
    One of my concerns in recent years has been that democracy 
and governance funding was largely eaten away at in order to 
fund and support laudable, necessary projects like Feed the 
Future and Power Africa.
    Talk to me about the larger question that we face. In a 
recent speech, you said that we must not allow the urgent to 
crowd out the important. Chairman Graham was talking about the 
number of failed or failing states, the very fragile states 
that are a crescent across North Africa and the Middle East.
    I am very concerned about whether we have the capacity and 
the plan and the vision to actually mobilize the capabilities 
that we as one of the world's leading democracies have to 
inspire movement toward sustainable democracies. Tunisia has so 
far turned out relatively well, but most of the other nations 
that took part in the so-called Arab Spring, not so much.
    In a number of countries that I pay particular attention 
to, from Somalia to Central African Republic to Nigeria, there 
are significant challenges. And just addressing the 
humanitarian side of this does not do enough. We need to do 
more structural work around democracy.
    How do you think we will allow the important to be part of 
our focus, as well as the urgent?
    Ms. Smith. Thank you for the question. That is one of the 
big questions on my mind. I think there are several things.
    You mentioned some of the major initiatives. I am thrilled 
that Electrify Africa passed through Congress and has been 
signed into law by the President. I hope that we will see a 
similar path for the Global Food Security Act and the Lab and 
on a number of other things where I think we enjoy strong 
bipartisan support for what the United States can and should do 
over time, because they yield real results.
    We have seen that in health. I came into the Obama 
administration and found PEPFAR, which was a lovely thing to 
find and build on. We have been able to move from what was a 
very bold idea by President Bush to getting within sight of an 
AIDS-free generation. I think in access to electricity, in 
maternal child health, the Global Health Security Agenda, the 
Lab, and Feed the Future, these are all things that with 
sustained support, and very well-spent resources, we can 
register the steady gains that are the buffer against the kind 
of instability and volatility we see on the other side of the 
ledger.
    You are absolutely right to speak to democracy and 
governance funding. The fiscal year 2017 request includes a 
substantial increase that will be applied in almost every 
region that we work in--I think, in fact, in every region that 
we work in. It is something our missions have spoken to the 
need for and have I think very smart ideas about how to invest.
    Again, investing those resources in the steady, slow work 
of building democratic institutions, supporting civil society. 
While at the same time, we are as USAID and across the rest of 
the Government and in this Congress, championing the norms that 
will make a difference over time, it is those steady, patient 
investments where we invest in what works, institutionalizing 
where we see the results, that is the biggest and best buffer.
    The other thing I will just mention that I think USAID 
brings to the table, which has perhaps been underutilized in 
the past, is a great deal of knowledge and analytical 
capability. I look at the work that USAID does on state 
fragility, looking at legitimacy and effectiveness of states 
through a number of indicators and criteria. It is extremely 
informative. You marry that to our analysis of what has worked 
and what has not worked in transitions.
    And I think, again, our other contribution is to inform how 
we proceed in these complex challenges when we are trying to 
take a country from transition to stability.

                     DATA QUALITY AND PARTNERSHIPS

    Senator Coons. Thank you. That leads to my last question 
very naturally.
    USAID Forward was the sort of general name for an 
initiative of your predecessor that tried to focus on 
efficiency, on data quality, and on prioritization of effort. 
One thing that stood out from the IG's report was some concern 
about data quality. I think you are right that USAID has a 
remarkable global network of people who actually have insight 
and experience into how states are doing, what is working and 
not working, into the investments we have made that have been 
successful in addressing everything from water to fundamental 
health to democracy, and insights into what is not working.
    How do you intend to work diligently in this 1 year to 
institutionalize and sustain and carry forward a focus on 
analytics that is rooted in data quality? And how does 
partnering with the private sector play into that?
    One of the things that I think has been a hallmark of 
recent years is recognizing that, whether it is Power Africa or 
Feed the Future, there is real potential and real power in 
partnering with the private sector in some areas.
    Ms. Smith. I have been very struck. The President, when he 
issued the Policy Directive on Global Development, he called 
upon all agencies to use data and evidence to drive our 
policies and programs. I think USAID has done a spectacular job 
in 5 years of incorporating quite an impressive rigor.
    But the other thing that quite frankly gives me confidence 
is that it is quite iterative. Every time I meet with the teams 
to ask what do we know about our progress in health or in this 
area or that, I am constantly hearing about efforts to improve 
the data for some of the reasons you point to. The data quality 
may not be what it needs to be.
    We have partnerships with outside organizations and 
institutions to come in and assess the gaps that we face, and 
where we have limitations.
    So there is a real commitment. I think this is in the men 
and women of the Agency. I will, certainly, drive it, support 
it, and demand it, but I think it is coming from the men and 
women who work in this Agency to continually improve the 
Agency's ability to drive with evidence. So I will certainly 
push that, elevate that. But I think we are on a very good 
path, and there is also recognition in the Agency that, as with 
any discipline, part of our job is to continually learn.
    The private sector helps us with this. There is a lot of 
experience in the private sector with how to work with data, as 
well as the Lab, with some of the technologies that are 
available for us to both track data, aggregate data, and then 
analyze data. I think it is a really exciting moment for USAID 
in this area.
    Senator Coons. Thank you. I am excited to work with you on 
many of these initiatives.
    Ms. Smith. Thank you.
    Senator Coons. I am grateful to Senator Graham for his 
leadership of the subcommittee.

                     FUTURE ASSISTANCE REQUIREMENTS

    Senator Graham. Thank you.
    Thank you for your testimony. We know that Libya, Syria, 
and Yemen by any definition are failed states. Five years ago, 
we had a presence in these countries. Today, we do not. One 
day, we are going to have a presence, I hope, in these 
countries, because that means stability is soon to follow.
    So that with what Senator Coons was saying--we have some 
great programs that need funding, Feed the Future, Power 
Africa. These are foundational programs. And you have a world 
on fire.
    So what I would like is if you could inform the 
subcommittee, from your point of view, what we should expect 
that your agency will be doing in the next 4 or 5 years in this 
region, but really throughout the world, so that we can budget 
accordingly.
    I just do not see how we can put out all these fires and 
then create programs inside these countries that more than put 
out a fire. The only way you are going to create stable 
governments is to have institutions that bring about stability. 
That is lot different than feeding refugees.
    From my point of view, the democracy programs are just as 
important as any weapon system we buy, because once you kill 
the enemy, if you do not follow up, you are going to get the 
same result.
    When it comes to Afghanistan, it is a very difficult place 
to operate, but in the last 16 years, 15 years, there has been 
enormous progress on multiple fronts. I do not know what has 
cost $17 billion. I know what 9/11 cost. It cost over $1 
trillion.
    So what I would like you to be a little more sensitive to 
is how you bring about stability. It is just not enough to 
destroy a terrorist organization, take a dictator down. 
Somebody has to deal with what follows. You have three 
countries where we do not have a presence. One day, I hope we 
will.
    If you could report back to the subcommittee, from your 
point of view, what people following you in the next 5 years 
will be doing in terms of Libya, Syria, and Yemen? How much 
will that cost, so we can start planning?
    You are welcome to respond, if you would like.
    Ms. Smith. Sure, Senator. My slight hesitation is that I 
have 10 months, and it is both a luxury but a little bit 
awkward to speak to what my successors are going to do. Let me 
make a run at it and inform it by something I did recently, 
which was to meet with all the former USAID Administrators, who 
I think would share this view.
    Senator Graham. One suggestion is that we know what we did 
in Iraq. We know what we have done in Afghanistan. Well, where 
we screwed up, let's not screw up again. But I think Syria and 
Iraq are relatively similar-sized. If Iraq is any indication of 
what we would be spending in Syria--and it may not be; 
hopefully, we will not have to do all the things we did in 
Iraq--but that is a guide.
    Do you see what I am saying, if we did a fraction of what 
we did in Iraq?
    Ms. Smith. So in response to your question, I would say a 
couple things and with the qualification that in this request, 
we are operating on the basis of a bipartisan budget 
agreement----
    Senator Graham. Yes. I am trying to get information to 
maybe justify additional funding.
    Ms. Smith. I hear you. I am about to speak to that.
    I think that to support those transitions over time, how 
much we spend is as important as how we spend it. Again, so I 
would point to two things. One is resources, and the second is 
flexibility.
    We often go into transitions--you mentioned Iraq as an 
example. A huge amount of money was spent, and I think we 
sometimes, as I said earlier, want to have government in a box 
built in 2 years. I would argue that we should start smaller, 
get success in ministries where we can show that government 
actually works, and build on it.
    That will take more resources as we get peace and openings 
in these three countries and others. I think there is no 
question that, over the coming 5 years, there is going to be a 
need for some decisions to be taken on how we finance our soft 
power. You have been a great champion of this, for which we are 
deeply appreciative.
    But again, I would marry the need for additional resources 
to the need for flexibility to be able to adapt to rapidly 
changing environments.
    But I think my successors, I hope they will be spending 
additional resources. I hope they will have that flexibility.
    Senator Graham. Where you can help us, inform us the best 
you can of what to expect in the coming years. You do not have 
to be mathematically certain, but just a general idea.
    Mr. Don Gressett, thank you for your efforts as a detailee 
to the subcommittee.
    With that, the subcommittee is adjourned.
    The record will be open until Friday.

                          SUBCOMMITTEE RECESS

    [Whereupon, at 3:37 p.m., Tuesday, March 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
